<html>
<title></title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                         [H.A.S.C. No. 116-69]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2021

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION
                               __________

                         FULL COMMITTEE HEARING

                                   ON

                          THE FISCAL YEAR 2021

                     NATIONAL DEFENSE AUTHORIZATION

                         BUDGET REQUEST FOR THE

                         DEPARTMENT OF THE ARMY
                               __________

                              HEARING HELD

                             MARCH 3, 2020

                                     
                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
42-130                    WASHINGTON : 2021

                                     

                      COMMITTEE ON ARMED SERVICES
                     One Hundred Sixteenth Congress

                    ADAM SMITH, Washington, Chairman

SUSAN A. DAVIS, California           WILLIAM M. ``MAC'' THORNBERRY, 
JAMES R. LANGEVIN, Rhode Island          Texas
RICK LARSEN, Washington              JOE WILSON, South Carolina
JIM COOPER, Tennessee                ROB BISHOP, Utah
JOE COURTNEY, Connecticut            MICHAEL R. TURNER, Ohio
JOHN GARAMENDI, California           MIKE ROGERS, Alabama
JACKIE SPEIER, California            K. MICHAEL CONAWAY, Texas
TULSI GABBARD, Hawaii                DOUG LAMBORN, Colorado
DONALD NORCROSS, New Jersey          ROBERT J. WITTMAN, Virginia
RUBEN GALLEGO, Arizona               VICKY HARTZLER, Missouri
SETH MOULTON, Massachusetts          AUSTIN SCOTT, Georgia
SALUD O. CARBAJAL, California        MO BROOKS, Alabama
ANTHONY G. BROWN, Maryland, Vice     PAUL COOK, California
    Chair                            BRADLEY BYRNE, Alabama
RO KHANNA, California                SAM GRAVES, Missouri
WILLIAM R. KEATING, Massachusetts    ELISE M. STEFANIK, New York
FILEMON VELA, Texas                  SCOTT DesJARLAIS, Tennessee
ANDY KIM, New Jersey                 RALPH LEE ABRAHAM, Louisiana
KENDRA S. HORN, Oklahoma             TRENT KELLY, Mississippi
GILBERT RAY CISNEROS, Jr.,           MIKE GALLAGHER, Wisconsin
    California                       MATT GAETZ, Florida
CHRISSY HOULAHAN, Pennsylvania       DON BACON, Nebraska
JASON CROW, Colorado                 JIM BANKS, Indiana
XOCHITL TORRES SMALL, New Mexico     LIZ CHENEY, Wyoming
ELISSA SLOTKIN, Michigan             PAUL MITCHELL, Michigan
MIKIE SHERRILL, New Jersey           JACK BERGMAN, Michigan
VERONICA ESCOBAR, Texas              MICHAEL WALTZ, Florida
DEBRA A. HAALAND, New Mexico
JARED F. GOLDEN, Maine
LORI TRAHAN, Massachusetts
ELAINE G. LURIA, Virginia
ANTHONY BRINDISI, New York

                     Paul Arcangeli, Staff Director
                 Katy Quinn, Professional Staff Member
               Jesse Tolleson, Professional Staff Member
                          Emma Morrison, Clerk


                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Lamborn, Hon. Doug, a Representative from Colorado, Committee on 
  Armed Services.................................................     2
Smith, Hon. Adam, a Representative from Washington, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

McCarthy, Hon. Ryan D., Secretary of the Army, Department of the 
  Army...........................................................     4
McConville, GEN James C., USA, Chief of Staff, U.S. Army.........     5

                                APPENDIX

Prepared Statements:

    McCarthy, Hon. Ryan D., joint with GEN James C. McConville...    57
    Smith, Hon. Adam.............................................    55

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Ms. Cheney...................................................    80
    Mr. Cisneros.................................................    78
    Mrs. Hartzler................................................    78
    Mr. Kelly....................................................    78
    Mr. Rogers...................................................    78
    Ms. Sherrill.................................................    77
    Ms. Speier...................................................    79
    Ms. Torres Small.............................................    78
    Mr. Waltz....................................................    77

Questions Submitted by Members Post Hearing:

    Mr. Banks....................................................    87
    Mr. Brindisi.................................................    89
    Mr. Carbajal.................................................    84
    Mr. Gallagher................................................    86
    Mrs. Hartzler................................................    83
    Ms. Houlahan.................................................    86
    Ms. Stefanik.................................................    84
    Mrs. Trahan..................................................    89
    Mr. Turner...................................................    83
    Mr. Vela.....................................................    85
    Mr. Waltz....................................................    88


                 THE FISCAL YEAR 2021 NATIONAL DEFENSE

      AUTHORIZATION BUDGET REQUEST FOR THE DEPARTMENT OF THE ARMY

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                            Washington, DC, Tuesday, March 3, 2020.
    The committee met, pursuant to call, at 10:30 a.m., in room 
2118, Rayburn House Office Building, Hon. Adam Smith (chairman 
of the committee) presiding.

  OPENING STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM 
       WASHINGTON, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. We will call the hearing to order. And let me 
say this is an incredibly well-mannered group. When 10:30 hit, 
everyone sat down and was quiet, without even saying anything. 
I appreciate that.
    We are here this morning to hear the posture hearing on the 
Army's budget request for fiscal year 2021, based on the 
President's budget request. And we are joined by Secretary 
McCarthy and General McConville, the Army Chief of Staff, to 
hear their testimony and thoughts on those issues.
    There are obviously no end of challenges within meeting our 
national security needs within the Army. I would like to focus 
on three in my opening statement, and I have a longer, more 
detailed, more dry statement for the public record.
    But, first of all, the big thing is the Army Futures 
Command. This was a huge move, and I know this was also part of 
the blank slate review and the ``night court'' exercise that 
the Army underwent when Secretary Esper was the Secretary of 
the Army and has continued since.
    What has that told us? I know it is very early in the 
process, but there was a very laudable goal to try to figure 
out, okay, things have changed, technology is incredibly 
important, there is a lot going on, what systems are we 
spending money on that we shouldn't be, where do we need to 
reinvest. Learning more about how that process is moving 
forward is incredibly important.
    Second, on personnel matters, this year I believe the Army 
did meet its recruitment goals. I know the previous year they 
had not. I would love to get an update on how recruitment is 
going. We have obviously heard, you know, considerable concerns 
about the number of age-eligible people in the U.S. who are 
actually physically qualified, qualified to even serve in the 
military. Is that becoming a problem in terms of getting the 
personnel that you need to get where you are at?
    And then the readiness issue. We all know that, as a result 
in part of our commitment to Afghanistan and Iraq for the 
better part of a decade or more, we had to shift goals, and 
that hurt overall readiness. Then, of course, we had the Budget 
Control Act and 6, 7 years' worth of budget shutdowns and 
threatened shutdowns and the continuing resolutions, and all 
manner of insanity that made it difficult to budget.
    I am going to point out again it is good this year we have 
a budget deal. Hopefully, we will be able to get it done closer 
to October 1, but there has been some consistency put into it. 
How has that affected our ability to meet our readiness goals?
    And then overarching all of this, for all of the services 
and throughout the national defense, is we have the National 
Defense Strategy, which is an excellent document I think that 
lays out the challenges we face. We all know Russia, China, 
North Korea, Iran, transnational terrorist groups, broadly 
speaking, that is the threat environment we face. How do we 
meet that?
    One of my continuing concerns here is if you take each one 
of those and say, ``Okay. What do we have to do to make sure 
that we are completely protected?'' and you try to do all five, 
there isn't enough money or personnel in the world that I am 
aware of to meet all of those goals. So how do we prioritize? 
How do we, as the military loves to say, manage risk 
intelligently?
    And I think Secretary Esper and I have talked about this a 
lot, and he shares the frustration. People coming in here 
constantly saying, ``Here is the threat. We are completely and 
totally unprepared. We have to do all this stuff in order to 
meet it. But, by the way, we don't have the resources to meet 
it.''
    That is not a very productive exercise, to my mind. Once we 
know what the resources are, I think we can put together a 
realistic strategy to meet those threats, instead of sort of 
being in panic mode all the time.
    Lastly, before I yield to the ranking member, I want to 
recognize that we started late this morning because you had to 
be at a funeral for Antonio Rodriguez, a member of the 7th 
[Special Forces] Group, who was killed in Afghanistan. And 
while we have significantly reduced our presence and our 
OPTEMPO [operations tempo] in Iraq and Afghanistan, it is not 
done, and we still have men and women from our country who are 
putting their lives on the line every day. This is a stark 
reminder of that. We need to remember them, honor their 
sacrifice, and do everything we can to support our troops and 
our families.
    With that, I will yield to Mr. Lamborn, ranking member. Mr. 
Thornberry is ill this morning, so Mr. Lamborn is sitting in. I 
yield to Mr. Lamborn any comments he may have.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 55.]

STATEMENT OF HON. DOUG LAMBORN, A REPRESENTATIVE FROM COLORADO, 
                  COMMITTEE ON ARMED SERVICES

    Mr. Lamborn. Well, thank you, Mr. Chairman, and thank you 
for those last remarks in particular. Well said.
    Secretary McCarthy and General McConville, on behalf of 
Ranking Member Thornberry, and my colleagues and myself, thank 
you for your dedicated service to this Nation, your support to 
every soldier and each of their families, and for being here 
today to provide testimony on the Army's fiscal year 2021 
budget request.
    Today we expect to have a good discussion over how the Army 
is operationalizing the National Defense Strategy, with this 
budget request, and to include how the Army is manning, 
training, and equipping the force to address both near- and 
long-term challenges posed by great power competitors like 
China and Russia.
    In this context, and with flat budgets likely to be the 
norm, I appreciate the Army's reform efforts to find savings 
within its current budget in order to increase investment for 
its six modernization priorities. The fiscal year 2021 budget 
request includes $12.7 billion for research and development and 
$24.1 billion for procurement.
    General McConville has stated that, quote, ``While we have 
managed to sustain the readiness gains the Army has achieved in 
fiscal years 2018 to 2020, and further invest in our six 
modernization priorities, our progress is at risk in future 
years if we don't have real growth of 3 to 5 percent in our 
budgets going forward.''
    Clearly, making hard choices will continue to be required, 
and my hope is that we can work together to continue striking 
the right balance to fund both current readiness and needed 
modernization. From what I understand, the Department of 
Defense has made progress in maturing the capstone concept for 
joint operations, and that the Army has been designated as the 
lead service to develop the supporting logistics concept.
    Providing logistics support in a contested environment is 
no small challenge. My hope is that we will begin to see some 
serious effort to reduce the demand for operational energy. I 
am most concerned about reducing our reliance on fossil fuels 
for both the new systems we plan to buy, and for the legacy 
systems we will continue to operate for decades.
    Approximately 75 percent of the convoys and forces 
performed in Iraq and Afghanistan were to transport fuel and 
water. This is a serious operational vulnerability.
    The current and projected readiness of the surge sealift 
fleet is critical to our ability to protect the Army. Although 
this is clearly a Navy requirement, it is also inextricably 
linked to the Army's relevance, and I hope we find a path to 
recapitalize this essential capability.
    I also look forward to hearing from our witnesses about the 
Army's way ahead with the sustainable readiness model. This 
critical concept has helped the Army smooth out the readiness--
smooth out readiness through many units' experience after 
deployments. Maintaining the higher operations tempo has come 
at the cost for the 1 million men and women serving in all 
three components of the Army--Active, Guard, and Reserve.
    I am encouraged by this improvement and hope that with some 
minor adjustments this concept will continue to serve the Army 
well.
    Finally, I look forward to hearing an update on the Army's 
progress in implementing the military housing privatization 
initiative reform that we passed in a very bipartisan way in 
the fiscal year 2020 NDAA [National Defense Authorization Act]. 
We know that some of the provisions will take some time to 
implement, but this committee is fully committed to keeping 
faith with our military families.
    Thank you, Mr. Chairman, and I yield back.
    The Chairman. Thank you.
    Before hearing from our witnesses, one programming note. We 
are going from last to first; the last shall be first. So we 
are doing reverse order on our questioning today. So for your 
preparation, we will start with the most junior member and work 
our way back up once we get to questions.
    But, with that, I will yield to Mr. McCarthy for his 
opening statement.

  STATEMENT OF HON. RYAN D. McCARTHY, SECRETARY OF THE ARMY, 
                     DEPARTMENT OF THE ARMY

    Secretary McCarthy. Chairman Smith, Ranking Member 
Thornberry, and Mr. Lamborn, excuse me, distinguished members 
of this committee, thank you for your continued support to the 
Army and our people.
    In 2018, the National Defense Strategy [NDS] outlined the 
current and future threat picture, drastically changing the 
Army's focus. The strategy outlined great power competition, 
specifically Russia and China, who are rapidly investing to 
modernize their formations.
    In order to achieve national objectives laid out in the 
defense strategy, including deterrence, the Army, with the 
support of Congress, developed three distinct priorities of 
readiness, modernization, and reform, and aligned our budget 
against the same. Two and a half years into our modernization 
efforts, we are here to continue what we collectively started.
    This budget request builds upon the funding authorities 
that Congress provided over the past 2 years. Together, we are 
creating irreversible momentum towards a ready, modernized, 
multi-domain Army, capable to meet future demands highlighted 
in the NDS.
    Our fiscal year 2021 budget request is $178 billion. Sixty 
percent of that top line is invested in our people and towards 
operations and maintenance, with the remainder of our available 
budget aligned towards our modernization priorities.
    Despite a fixed top line and flat budget, demand for Army 
forces continues to rise. The Army currently fulfills 60 
percent of the overall combatant commanders' [COCOMs'] demands, 
with no projected decrease in COCOM demand. Demand, paired with 
the need to bring new systems online, will require us to grow 
the budget 3 to 5 percent real growth in the outyears.
    Readiness remains the Army's number one priority. We remain 
ready today, capable of dynamic force projection. Take, for 
example, this year on New Year's Eve we pushed a brigade-size 
element on a no-notice cold-start emergency deployment.
    Within hours, soldiers from the 82nd Airborne Division went 
from holiday parties to wheels up on a C-17. Within a day, 
soldiers were operating in the Middle East. Nearly half of our 
brigade combat teams are at the highest levels of readiness, 
pulling us from a readiness trough to a readiness peak over the 
last 3 years.
    On modernization, we are rapidly developing new 
technologies across 6 modernization priorities and 31 signature 
systems, all geared towards meeting the demand of the future 
battlefields.
    The creation of Army Futures Command has allowed us to 
combine the stakeholders together and rapidly increase the 
speed of the modernization process. We are seeing real results. 
Prototypes that began in fiscal year 2018 and 2019 are 
maturing, with real capability landing in fiscal year 2021 and 
fiscal year 2022.
    In this fiscal year, we will increase soldier touch points, 
test shots, capability demonstrations, and the fielding of our 
formations. The Army is investing $800 million across the next 
5 years' defense plan towards cloud computing, which is central 
to our modernization effort.
    Long-range fires, including Extended Range Cannon 
Artillery, Precision Strike Missile, and hypersonic missiles, 
are flying further and hitting their targets, increasing our 
reach and lethality, essential deterrents in the joint fight. 
We have invested $1.3 billion towards these efforts, and 
continued funding will allow the Army to field a road-mobile 
battery in fiscal year 2023 for hypersonic missiles.
    New aircraft in our future vertical lift portfolio are 
flying hundreds of test hours as we fly before we buy. We have 
seen great advances in our soldier lethality portfolio for 
individual kit, with the integrated visual augmentation system 
that links multiple sensors to multiple shooters and multiple 
command and control nodes, ultimately increasing lethality and 
survivability of our men and women.
    The demand for Army forces, paired against a flat budget, 
has forced tough fiscal decisions. In-depth program reviews 
will continue in fiscal year 2021, with a total target of an 
additional $9.1 billion in programs that will be delayed, 
reduced, or eliminated.
    The Army will continue to show fiscal responsibility with 
taxpayer dollars. We view every dollar as we do with 
ammunition: each bullet matters and is aimed at a target.
    With Congress' steadfast support, we are here to finish 
what we collectively started. I would like to share the floor 
with my teammate, General McConville, and I look forward to 
your questions.
    [The joint prepared statement of Secretary McCarthy and 
General McConville can be found in the Appendix on page 57.]

STATEMENT OF GEN JAMES C. McCONVILLE, USA, CHIEF OF STAFF, U.S. 
                              ARMY

    General McConville. Chairman Smith, Mr. Lamborn, 
distinguished members of the committee, I also want to thank 
you for the opportunity to be here today and for the support 
you all continue to give to our Army and our people, our 
soldiers, our families, our civilians, and our soldiers for 
life, our retirees and veterans.
    As of this morning, the Army has over 190,000 soldiers 
deployed to 140 countries all around the world. Those soldiers 
form the leading edge of an Army that stands ready to fight and 
win whenever and wherever it is called. We are currently 
demonstrating Army readiness with our Defender 20 exercise in 
Europe, the largest of its kind in 25 years, and we will do the 
same in the Pacific in the fall on a smaller scale. Both 
exercises will further strengthen not only our readiness to 
deploy U.S. Army forces, but they will also increase our 
ability to fight alongside our allies and partners and deter 
those nations or groups who wish America harm.
    Going forward, we will sustain the tactical readiness of 
our units while at the same time ensuring we are strategically 
ready to mobilize, deploy, and sustain our combat forces in a 
way that supports how we will fight in the future. To ensure 
the Army will be ready and can win in the future, we must also 
modernize, as the Secretary and I have discussed with many of 
you.
    The National Defense Strategy has focused us on great power 
competition, but great power competition does not have to mean 
great power conflict. A ready, modern, and multi-domain Army 
provides the Nation's strategic leaders with the flexible 
options to compete below the threshold of armed conflict while 
maximizing deterrence.
    With timely, adequate, predictable, and sustained funding, 
we will deliver an Army that will never be outranged, 
outgunned, or overmatched. But to get to the Army that we need 
in the future requires transformational change, not incremental 
improvements.
    Our fiscal year 2021 budget requests support that supports 
transformational change. It aligns our resources with the 
National Defense Strategy and our Army priorities. It also 
balances the demands for readiness now and allows us to invest 
in the future.
    Our budget request maintains 58 brigade combat teams, 23 
aviation brigades, and 6 security force assistance brigades 
across the Regular Army, the Army National Guard, and the Army 
Reserves. It enables 24 combat training center rotations, 
including 4 for the Army National Guard. It funds strategic 
readiness, including dynamic force employments to Europe and 
the Indo-Pacific and the maintenance of key prepositioned 
stocks and ammunition.
    It provides modest end strength growth to meet expanding 
operational requirements and promotes interoperability with 
allies and partners through combined exercises with countries 
around the world. In terms of modernization, I request support 
for the continuing development of the Army's multi-domain 
operations concept, which will inform our contributions to the 
emerging joint warfighting concept.
    Our request funds multi-domain task forces in Europe and 
the Pacific to increase Army's capability in both competition 
and conflict, and a budget request supports critical steps in 
research and development that will allow us to deliver key 
systems across our six modernization priorities. Our budget 
request also funds key quality of life improvements, like 
housing and child care, to take care of people.
    Finally, our budget helps us win the war for talent by 
moving us from an Industrial Age personnel management system to 
a 21st century Information Age talent management system, with 
the continuing implementation of the Integrated Personnel and 
Pay System and initiatives like the Talent-Based Branching, the 
Army Talent Alignment Process, and the Battalion Commander 
Assessment Program.
    Thank you for your time and for your support to our Army. I 
look forward to your questions.
    The Chairman. Thank you both. I don't have any initial 
questions. I have had the opportunity to meet with both of you 
gentlemen, speak to you a number of times.
    So I will begin by yielding to Mrs. Trahan for 5 minutes.
    Mrs. Trahan. Thank you, Mr. Chairman.
    And thank you, Secretary McCarthy and General McConville. 
The Army's Futures Command is focused on delivering 
capabilities aligned to the Army's six modernization priorities 
to the battlefield in the next 5 to 10 years. But the Army's 
laboratories, alternatively, should be focused on longer term 
groundbreaking science and technology development for the next 
generation of warfighting, say, in the next 20 to 30 years.
    The Army's great laboratories, including Natick Soldier 
Systems Center in Massachusetts, now align under AFC [Army 
Futures Command] and they are doing excellent work supporting 
the Army's priorities today through 2028. But how will Futures 
Command champion and prioritize the necessary long-term 
scientific and technology research required for our next-
generation Army of the future?
    Secretary McCarthy. Ma'am, we conduct--when we did the 
merger for Army Futures Command, a lot of it was we needed to 
take a look at how the investments were performing across our 
lab network, both internally and externally. So General Murray 
has been in the process of a review of the entire S&T [science 
and technology] portfolio, so that we could take a look at 
where was the best engineering and science talent worldwide 
that can support our objectives.
    Much of that we realize was that we were spreading the 
money around and didn't have strategic relationships that 
aligned with the investment portfolios. To your point, from a 
near-term research to, you know, the much more disruptive 2020 
changing of technology, but it would ultimately change the way 
we fight.
    So he has been in that process. We have made some 
adjustments, and we will probably make another adjustment by 
fiscal year 2022 when we drop that budget next year.
    Mrs. Trahan. Thank you. I am just going to switch gears 
because there has been a myriad of factors that surge from the 
escalation created by the Soleimani attack. And I am worried 
about our ability to properly diagnose those affected with the 
invisible wounds of war, especially after the Iranian ballistic 
missile attack on Al Asad airbase on January 8.
    And the latest update shows that as many as 110 U.S. 
service members suffered from traumatic brain injury, or TBI, 
as a result of the blast. And, you know, while the President 
categorized some of these injuries as headaches, we know that 
it is much more than that. They are much more serious than 
headaches, as these conditions are often linked to suicide, 
PTSD [post-traumatic stress disorder], et cetera.
    So, I am wondering if there is a reliable way to determine 
who has a brain injury and who does not, in theater. And I am 
also wondering if the Department is broadly leveraging 
commercial available technologies that quantitatively measure 
and record blast overpressure exposures, because I understand 
that technologies have been fielded successfully in combat 
environments as early as 2011 through DARPA [Defense Advanced 
Research Projects Agency].
    General McConville. Yes, Congresswoman. You know, over the 
last 19 years, we have seen a lot of blasts with our soldiers, 
and I think the Army, and really the military, has been on the 
cutting edge of concussion research because we are very 
concerned with traumatic brain injury, which also leads to 
post-traumatic stress and some of the terrible things that go 
along with that.
    But we do have the capability, and quite frankly, we 
actually changed the culture, where when someone is near a 
blast, you are going to get checked out. It is no longer take a 
punch in the head and just kind of, you know, get after it and 
get back in the fight. What we have learned is, if you get 
exposed to a blast, you have a good opportunity to recover if 
you get the proper medical support.
    And so what we do now, anyone that is involved in any type 
of blast, whether it is an IED [improvised explosive device], 
or in this case those are very large theater ballistic missiles 
that hit into Iraq with 1,000-pound capabilities, is we have 
diagnostic cases, or we have diagnostic systems, MACE 2 
[Military Acute Concussion Evaluation 2], which allows us to 
test the soldiers at the point of contact. And those that need 
more testing, we start to move them back through our medical 
system, and that is what we have done with these soldiers.
    Many were returned back to duty. About 70--about 37, I 
think, is the number actually came back here. And we will make 
sure that they get the best care that this country has to 
offer, and, you know, there is some terrific scientists that 
have done some incredible work in that area and we want to make 
sure they get to that level.
    Mrs. Trahan. You bet. And if there is anything that 
Congress can undertake to ensure that those technologies are 
more rapidly fielded, we would love to work with you on that.
    General McConville. Okay.
    Mrs. Trahan. So thank you. I yield back.
    The Chairman. Thank you.
    Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman.
    And I have two questions, and then later we will go to Mr. 
Waltz and proceed accordingly. But, first, let me ask this. 
General McConville, in the fiscal year 2019 NDAA, the Army was 
directed by Congress to procure four batteries of an interim 
indirect fire protection capability against mortars and 
artillery, after having deliberated for years over what form 
this capability should take.
    Now, the Army has procured two Iron Dome systems as a 
result of this NDAA requirement. So, it seems that while the 
Army continues to evaluate this enduring indirect fire 
protection capability, the Iron Dome capability appears to be a 
battle-proven system and a known quantity and is something we 
have on hand.
    Could you please update this committee on the status of the 
Army's plans for indirect fire protection capability, which is 
very justified and is a threat that we face? And does the Army 
have plans to procure an additional two batteries of Iron Dome? 
And how does Iron Dome fit into these plans?
    General McConville. Yes, Congressman. And, first of all, we 
are very concerned about the indirect fire and really the 
threat to our soldiers from any type of system, whether it is 
unmanned aerial systems, it is theater ballistic missiles. And 
where the Army is going is right now, as you said, we went 
ahead and have purchased two Iron Dome batteries. They are 
standalone static batteries that provide a certain capability. 
They are combat proven.
    But where the Army is going to is a layered defense for 
aerial missile defense. We see that in the future as something 
we are very concerned about. We want to be able to tie every 
sensor to shooter. The way we see the future is multiple radars 
will be tied into an integrated battle command system, which we 
will be able to apply the appropriate shooter a response to 
whatever that threat is. And that response could be directed 
energy, which we are working on right now.
    It could be a high-powered microwave, which we are working 
on right now. It could be some type of gun system, which we 
have the capability to do right now. It could be a missile 
system at the lower and higher level, what you want to do.
    But what we don't want to do is be in a position where we 
are shooting Patriot missile systems or even larger missile 
systems at small, unmanned aerial systems, where the value 
analysis doesn't [inaudible] out.
    So, we are not--you know, as we talk to Iron Dome, and they 
bring it on board, we are going to get a chance to get our 
soldiers on board. We are broadcasting the type of system that 
we want and what we need in the future, and we want them to 
compete along with other U.S. companies that want to be in--
that want to compete for this long-term capability.
    Mr. Lamborn. Okay. Thank you. I look forward to seeing how 
that continues to fit into the evolving plans. I think it is a 
very proven and critical defense.
    And, secondly and lastly, for both of you, I want to ask 
about the current strength of our Patriot and THAAD [Terminal 
High Altitude Area Defense] forces. A recent Army study 
increased the THAAD battery requirement from seven batteries to 
eight. But this eighth battery was not in the Army's fiscal 
year 2021 budget request and can only be found in the Missile 
Defense Agency's unfunded priority list.
    I know we are investing in a new Patriot radar and other 
modernization initiatives. However, THAAD and Patriot batteries 
are among the most deployed units in the military, and I am 
concerned that we might be spread too thin. And this was 
brought to the attention of the American public when our 
soldiers in Iraq were targeted by a ballistic missile attack 
recently.
    Do you feel the Army has the missile defense force 
structure to meet current global requirements?
    General McConville. I think the Army has what it needs, 
because it has what it has right now. And if we innovatively 
employ those systems, we have what we need. We are taking a 
look again, getting to how we work in the future, when we take 
a look at places like the Middle East.
    How do we work with partners that have Patriot capability 
that can defend themselves? And what we are looking at in some 
cases when it comes to air missile defense is advising and 
assisting our partners, so they use their capability to defend 
their bases and their critical infrastructure, and that we can 
use our systems to take care of our soldiers and our bases, is 
where we want to go in that.
    Now, the secret, though, at least from--not the secret, but 
the end state for us is really tying in multiple sensors with 
multiple shooters, and THAAD and Patriot are part of that 
equation.
    Mr. Lamborn. So, you do feel you need that eighth battery 
even though it is not in your request.
    Secretary McCarthy. Sir, the MDA [Missile Defense Agency] 
is the one that developed the THAAD system, and they fund that 
through the Missile Defense Agency. We have been--we work that 
in concert with the Missile Defense Agency.
    With respect, also, to the Patriot systems, we are working 
with the manufacturer to increase capacity and with our allies 
and partners to increase the sales, and to General McConville's 
point about an advise-and-assist capability, so that we can 
bring our batteries home and have our allies do more their 
share.
    Mr. Lamborn. Okay. Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you.
    Mr. Golden.
    Mr. Golden. Thank you. Secretary McCarthy, earlier this 
month in speaking about the Close Combat Lethality Task Force, 
Secretary Esper mentioned that--and this is a quote--``What we 
are going to do probably is transition it to the Army, because 
something like that needs a strong foundation of backbone upon 
which its ideas can then filter out.''
    Do you support this organizational restructuring?
    Secretary McCarthy. Absolutely, sir. In experiences that I 
have seen in the Department, the task forces bring a tremendous 
amount of energy towards an issue. But how do you harness that 
over the long haul? If you hearken back on recent history, the 
Mine-Resistant Ambush Protected Vehicle Program, or the ISR 
[Intelligence, Surveillance, and Reconnaissance] Task Force, or 
the Counter-IED Task Force, transitioning that to a program of 
record so institutionally you don't lose the tremendous 
momentum that was created. With respect to the Close Combat 
Lethality Task Force, it is remarkable what they have achieved 
in the last 2\1/2\ years.
    We created the Army Futures Command. We have a soldier 
lethality investment portfolio. The investments that we are 
making, along with some of the task organizational changes, is 
fundamentally changing the task organization of rifle platoons, 
making them more lethal. So, this has been a big win for the 
Department.
    Mr. Golden. Look, I agree. I think this is critically 
important. As someone that served in an infantry unit, I think 
this is----
    General McConville. Can I just add on that?
    Mr. Golden. One second, though, General. One thing that I 
did also want to ask--and a concern that I have, Secretary and 
General McConville--Major General Scales, who, as you know, was 
a part of this early on, has expressed his concern about 
removing this from being a joint force structure endeavor, 
bringing this over to the Army and leaving the Marine Corps 
behind. That is something I think Secretary Mattis, you know, 
envisioned as being a joint operation.
    So, I wanted to ask, one, why move it just to the Army? 
And, secondly, if that is what we ultimately do, how are you 
going to make sure that the Marine Corps continues to benefit? 
Because the Commandant of the Marine Corps sat here just last 
week and talked about how important this was for the Marine 
Corps as well.
    Secretary McCarthy. Well, I think the chief should comment 
as well, sir, but we are--I mean, we are totally integrated. 
When we have gone down to test the next-generation squad weapon 
or the IVAS [Integrated Visual Augmentation System] system, 
there are Marines that are from 1st Infantry Division. They 
have representatives from MCCDC [Marine Corps Combat 
Development Command]. So, it is a Marine/soldier-centered 
design on these weapon systems. We are investing jointly. So, I 
have been very encouraged by what I have seen. Every time we 
are there, we see Marines.
    Mr. Golden. Good. I want to continue to see it that way. 
Anything, General?
    General McConville. The only thing, I think we should give 
tremendous credit to the Close Combat Lethality Task Force. 
Really, the Integrated Visual Augmentation System--we are 
calling it IVAS--that is transformational in nature.
    And as the Secretary said, that is going to change the way 
our combat soldiers, whether they are in the Marines or Special 
Forces, they actually rehearse for missions and the ability to 
go and do it. And it is almost like bringing an iPhone-type 
capability compared to a dial-up phone to the Army and the 
Marines.
    Mr. Golden. I couldn't agree with you more, General.
    General McConville. And what is important is we have 
Marines right now that are working on that system, so we don't 
have to develop it just for the Army. We have Special Forces 
that are working, and, again, that is a huge difference, along 
with the next-generation combat weapons that we are developing.
    Mr. Golden. I am glad you brought that up. That is my next 
question. But I couldn't agree with you more. I came to the 
hearing you had here last year and played around with the 
augmented, you know, system. I thought absolutely amazing and 
could make a huge difference. I just want to stress to you both 
I am committed to making sure the Marines continue to benefit 
as well.
    But you did mention, General, the next-generation squad 
weapon. I know you are looking to get that out to a unit in 
fiscal year 2021. Could you just say a word or two about what 
kind of attributes you are looking for with this new weapon? 
What do you hope to accomplish with it?
    General McConville. Well, there are two weapons involved. 
It is really a next-generation carbine rifle and also a squad 
weapon. And what these weapons will have is the capability to 
go through anything on the battlefield out to about 600 meters, 
and that is what we need and that is what our soldiers and that 
is what our Marines and that is what our Special Forces need on 
the battlefield.
    So, this will be a very lethal weapon, and it is pretty 
amazing how fast it is developing. And it will be even more 
amazing when it--how it will link into the IVAS system. We are 
watching people with marksmanship that--much greater than they 
would have ever had with an iron sight.
    Secretary McCarthy. We have got to get you down at Fort 
Benning. I went down and shot it last summer. Thirty percent 
lighter. The ergonomics are very unique, so it made it very 
easy to hold. It has 6.8-millimeter caliber rounds. It is going 
to be a big game changer for an infantry platoon.
    Mr. Golden. If you promise that I will get to shoot, then I 
am there.
    Secretary McCarthy. Count on it, sir.
    Mr. Golden. Thank you very much. I yield back my 10 seconds 
here.
    The Chairman. Thank you.
    Mr. Waltz.
    Mr. Waltz. Thank you, Mr. Chairman, and thank you for your 
mention of Sergeant First Class Rodriguez.
    Mr. Secretary, it was an honor to join you this morning at 
his funeral at Arlington, along with Representative Gaetz, a 
Ranger and Green Beret that it is worth noting had 10 years in 
the Army before he was killed. He was on his ninth tour in 10 
years in the Army.
    So, we are going to talk a lot today about Army budgets and 
preparing for great war competition, or great power 
competition, excuse me, and the wars we want to deter. But we 
cannot--we cannot in this committee, and I know you won't in 
the Army, forget the wars that we are in right now as we speak.
    Along those lines, and going kind of big to small here, top 
line, top line likely is flat and likely going to stay that 
way, at least in my opinion. Personnel keeps eating up more and 
more of that budget in the outyears. How do we modernize, recap 
[recapitalize], and procure, with less and less budget over 
time? I know that is going to be just a matter of priorities. 
What are we going to do with and without?
    Secretary McCarthy. So, Congressman, under current 
assumptions of a flat budget, we are faced with either 
flattening end strength or tiering the modernization strategy. 
So that would be within the portfolios choose divisions that 
you would scale first. So, nothing but really very difficult 
challenges without an increased top line.
    Mr. Waltz. Thank you, Mr. Secretary. Can you just tell us 
for a moment, what are we doing to prepare in the Army and 
particularly the Guard, for a pandemic? The Guard being down in 
every single community, again, you know, being from Florida, I 
know this verse well, and still a serving guardsman, we will be 
the front lines on both preparedness and response. And I just 
wanted you to take a moment to share with the committee what we 
are doing proactively to prepare.
    Secretary McCarthy. If I could, sir. And I would also like 
the chief to comment as well. But, sir, over the last couple of 
months, our medical research and development community, which 
is just truly exceptional--men and women like Dr. Kayvon 
Modjarrad, who came to us from the World Health Organization. 
He is one of three people on the earth that has actually 
published on the coronavirus. Dr. Nelson Michael, who was 
involved with how we traced Zika and Ebola virus. So, we have 
extraordinary people within the Army research and development 
community.
    We have organized against three lines of operation: 
prevention, detection, and treatment. On the prevention front, 
it is really where is every soldier and family member on the 
Earth? And Vice Chief of Staff of the Army, General Joe Martin, 
leads this meeting every day and they are looking at where 
everybody is and making risk-based assessments. Do we turn off 
exercises? Do we deploy and PCS [permanent change of station]? 
Because a lot of this is is we are still learning about what 
happened in China, and how will this--will it or will it not 
proliferate? And to what extent?
    So, making these choices literally by individual and by 
unit every day. So that is the first thing on the prevention 
front, and it is continued learning.
    We are working on a vaccine in concert with NIH [National 
Institutes of Health] and CDC [Centers for Disease Control and 
Prevention]. Dr. Michael is a protege of Dr. Fauci at NIH, so 
we have great relationships. But they are testing on animals 
right now, so it will ultimately get to a human sample within a 
couple of months is what we are looking at hopefully.
    Mr. Waltz. That is great.
    And then, Mr. Secretary, if I can take the rest for----
    Secretary McCarthy. Yes, sir.
    Mr. Waltz [continuing]. The record.
    [The information referred to can be found in the Appendix 
on page 77.]
    Mr. Waltz This committee and a prior NDAA commissioned or 
directed a commission on national service, which is due--its 
report is due in the coming month. My colleague Ms. Houlahan 
and I, along with several of our other colleagues, have a 
national service bill. This is not a return to the draft. You 
do not necessarily have to be in uniform. It is national 
service across the board, and we believe we can incentivize 
that.
    I just want to get your assurance that I can't imagine that 
you would see this as competitive from a recruiting standpoint. 
I think, in fact, it would be complementary to have kids out in 
their community, Boys and Girls Club, Habitat for Humanity, but 
how do we get back to a sense of leadership, followership, 
discipline, and doing it with people that don't look like us.
    And I would think that would be absolutely great for the 
Nation, great for the Army, but I just wanted to get your 
thoughts on the record.
    Secretary McCarthy. Sir, any tool that we can have define 
the best and brightest talent in the country to serve in 
uniform or as a civil servant, we would want to go get them. 
So, it would be a great opportunity. I would like to learn 
more.
    [The information referred to can be found in the Appendix 
on page 77.]
    Mr. Waltz. Thank you. If I could just get a question for 
the record. One, your dependency on space assets. A lot of 
people don't associate Army with space. And then, two, how the 
National Guard is using its civilian skill set database, 
particularly in IT [information technology] and in AI 
[artificial intelligence]--excuse me, not in IT but in AI, and 
how is that informing our recruiting for cyber and for--we were 
just over in the JAIC [Joint Artificial Intelligence Center]--
and for the recruiting challenges there. Thank you so much. 
Thank you both for your service.
    [The information referred to can be found in the Appendix 
on page 77.]
    Secretary McCarthy. We will go down there this month, sir.
    Mr. Waltz. Rangers lead the way.
    The Chairman. Ms. Escobar.
    Ms. Escobar. Thank you, Mr. Chairman.
    Secretary McCarthy and General McConville, thank you so 
much for being here. Thank you for your service. It is good to 
see you both again.
    And thank you also for mentioning Sergeant First Class 
Rodriguez from Las Cruces. He was the constituent of my 
neighbor, Congresswoman Torres Small, and we all mourn the loss 
and his passing, and our thoughts and prayers are with his 
family. So, thank you for that.
    Secretary McCarthy, I am very concerned about the impact of 
continued MILCON [military construction] project deferrals, and 
I would like to get your insight on the path forward for us. 
Last year, $3.6 billion was taken from MILCON accounts across 
DOD [Department of Defense], putting a number of the Army's 
critical infrastructure projects at risk of delay or 
cancellation. At Fort Bliss, this meant a safety-driven 
improvement to our access roads was put on hold.
    I also worry about the ripple effect of delays on projects 
slated for future years, and that we may be failing to 
prioritize strategic investments that are necessary as we face 
the specter of great power competition.
    For example, Fort Bliss' top MILCON priority is a railyard 
improvement. As the largest joint mobilization platform in the 
DOD, they can already accommodate a throughput of 70,000 
annually. However, they cannot presently meet Army standards 
for an armored brigade combat team deployment timeline because 
of the current track design.
    The necessary improvements would cost just $29 million and 
are imperative to meet the mission requirements. This is a 
sound investment, the Army's premier power projection platform 
for overseas contingency operations.
    Secretary McCarthy, when Secretary Esper was in your role 
last year, he said MILCON priorities for the Army begin with 
readiness and power projection. Do you share his view? How do 
you see this kind of rail improvement fitting into those 
priorities?
    And, General McConville, would love your perspective as 
well.
    Secretary McCarthy. Congresswoman, incredibly important. We 
conducted an emergency deployment readiness exercise from a 
brigade out of Fort Bliss last year, heavy unit that went to 
Europe. They got the entire brigade on the ground in about 9 
days, remarkable performance, but we have got to do everything 
we can to reduce that span time, to get units from no-notice to 
anywhere in the world.
    So incredibly important. We will continue to work and find 
ways to invest in these projects, to your point, because that 
is how we are going to be able to have the dynamic force 
projection necessary to meet national objectives.
    Ms. Escobar. Thank you.
    General McConville. Congresswoman, I would add to what the 
Secretary said, is when we look at readiness, there are two 
pieces to readiness, so to speak. One is strategic readiness; 
one is tactical readiness. Tactical readiness means the units 
are ready to go. They are all trained, they are equipped, and 
everything else like that.
    And strategic readiness is the ability to get them to the 
fight, and that is what we did with that brigade. And we know 
we need to improve those capabilities because that is how we do 
dynamic force employment is to have the ability for strategic 
mobility, and all of those come into play, and those are 
prioritized, and, you know, we certainly support them but we 
have got to prioritize within the budget we have.
    Ms. Escobar. Thank you. And speaking of strategic 
readiness, are there any lessons learned emerging from the 
Defender Europe 20 exercise regarding our mass deployment 
capabilities?
    General McConville. Yeah. What we are learning is, again, 
and we are just starting to deploy right now, so we learned an 
awful lot from that brigade that came out of--the 1st Armored 
Division did a wonderful job. They got a no-notice deployment 
also. And what you will find is with the deployment is 
sometimes, whether it is the various facilities in countries 
that we go to, we learn a lot about that. And that is part of 
the reasons we want to test those capabilities, and that is why 
we are testing it in Europe.
    We have an airborne jump going in there. We are doing--we 
are drawing our prepositioned stocks. We are also shipping 
equipment over there to different ports, and then the ability 
to move it through Europe is something that we will learn and 
share with our allies and partners to make sure that we can do 
this in a conflict.
    Ms. Escobar. Thank you. El Paso is a vibrant military 
community, as you both know full well, with one in five 
residents connected to Fort Bliss in one way or another, and an 
excellent spirit of collaboration for the Army's work. 
Particularly as MILCON programs are being deferred, our 
committee has been eager to see swift implementation of the 
Defense Community Infrastructure Program [DCIP].
    We heard last week from Secretary Esper that the early work 
to implement DCIP is underway. Just super quick, are you 
involved in these discussions?
    Secretary McCarthy. Yes, ma'am.
    Ms. Escobar. Yes. Okay. We would love guidance as soon as 
possible, please. I know my time has expired, and I yield back. 
Thank you both.
    The Chairman. Thank you.
    Mr. Bergman.
    Mr. Bergman. Thank you, Mr. Chairman.
    And thanks to Secretary McCarthy and General McConville for 
being here. Time is finite, so I will get right to the 
questions.
    This budget recognizes the importance of large-scale 
exercises in multi-domain operations seeking growth of 
strategic readiness exercises like Defender Europe and Defender 
Pacific. While these exercises are critical, there are also 
extensive exercises happening here at home. For example, Camp 
Grayling in Michigan is host to the DOD's largest joint Reserve 
Component, collective live-fire readiness training event, 
Northern Strike.
    Last year the exercise included over 7,000 personnel from 
20 States and 7 countries, to include the likes of Latvia, 
Lithuania. This year Liberia and the U.K. [United Kingdom] are 
also joining.
    What is your take on the need to expand and enhance 
exercises like Northern Strike in order to support the Army's 
top priority of multi-domain operations? And, by the way, there 
is an invitation on the table if you haven't attended and can 
make it in August.
    General McConville. Well, Congressman, I am very excited 
about these type of exercises, because first of all their home 
station, they are dealing with the Reserves, which I think is 
very, very important. There is a lot of capability up there. 
There is live fire involved, and also the fact that you have 
seven countries. And, you know, part of our strategy is to 
train with partners and allies, and so we have interoperability 
and we have the ability to know each other before we actually 
enter into a conflict.
    So I support these type of operations. They have to be 
nested within the budget we have. But I think they are very, 
very important for future readiness.
    Mr. Bergman. General McConville, back to you. The Army 
National Guard and the Army Reserve--let's kind of focus on the 
Army Reserve right now--has historically reported lower 
readiness levels than the Active Component. That is to be 
expected, because you are not there full-time. And yet they are 
shouldering a pretty significant portion of the Army's 
logistical capabilities.
    What is your assessment of the current readiness of the 
Reserve Component? And as the Army seeks to grow the Reserve 
within this budget, what are you doing to ensure that they are 
optimally manned, trained, and equipped to mobilize?
    General McConville. Well, first, Congressman, we are very 
proud of our Reserve forces. We have asked an awful lot of them 
over the last 18, almost 19 years of combat. They have been 
side by side with us in every place we have been. And as far as 
their readiness, we are concerned about their OPTEMPO. What we 
will move to is more of a focused readiness for Reserve forces 
to give them more predictability.
    We can't have them ready at the same level as Regular Army 
units all the time. But as they come into windows and we can 
get them to the appropriate dwell time, we can train them up to 
be the right level of readiness, and then employ them in line 
with the promises we made, either 1:4 or 1:5 deployment to 
dwell levels. And we are working that with the Chief of the 
Reserves.
    Mr. Bergman. Okay. General McConville, it seems like all of 
my questions are focused on you, but that is okay. You know, as 
the Army seeks modernization in its ground combat and tactical 
vehicle systems, how is modeling and simulation being utilized 
to realize potential savings, to rapidly field capabilities, to 
get the training up? And how is the Army looking to leverage 
virtual prototyping?
    General McConville. Yeah. I think modeling and simulation 
is absolutely critical, and it really comes down to, I want to 
say, resources. We can save money up front by modeling, 
simulating, whether it is designing prototypes, and actually it 
is amazing what you can do with a computer right now before you 
actually build prototypes.
    If you take a look at the strategy we have right now for 
the Optionally Manned Fighting Vehicle, that is exactly what we 
are doing is we are going to make competitors show us a 
detailed design that we can actually model and simulate with 
before we go to prototype and before we finalize our 
requirements. So, we make sure we have the right requirements 
in place and we don't waste money along the way for 
development.
    And the same thing with training, and even testing out our 
systems. We are experimenting and simulating with the type of 
units that we are going to develop for multi-domain operations, 
so we know whether they will be successful in combat or not.
    Mr. Bergman. Well, you know, and I see my time is running 
short here, I will just say I was really excited. A couple of 
months ago, I went over across the river and saw IPPS-A 
[Integrated Personnel and Pay System-Army] and how the Army is 
going to do the integrated personnel system.
    There is no one--I will just say specifically to the 
Reserve and Guard Components. Nobody joined to go to a drill 
center and have someone hold a piece of paper and say, ``Is 
this your signature?'' Or here is another PowerPoint training. 
They went--they joined to go to the field to be capable, and I 
am counting on you all with the support that we have here to 
take that modeling and simulation, turn it into real training, 
so it's combat capability and readiness when we need them.
    With that, I yield back, Mr. Chairman.
    The Chairman. Thank you.
    Ms. Sherrill.
    Ms. Sherrill. Thank you, Chairman Smith.
    Secretary McCarthy, General McConville, last week we heard 
from the Secretaries of Defense and the Navy, as well as 
Chairman Milley and CNO [Chief of Naval Operations] Gilday. At 
the top of many of our minds was the recent reprogramming 
action by the Department of Defense.
    To begin, I would like to take this opportunity to echo the 
concerns Ranking Member Thornberry expressed last week that 
these reprogramming actions substitute the judgment of the 
administration and the Department of Defense for the judgment 
of Congress, and I believe they pose a serious threat to our 
readiness efforts.
    To that end, I would like to discuss the zeroing out of 
several National Guard and Reserve equipment and modernization 
accounts, including the entire Humvee [High Mobility 
Multipurpose Wheeled Vehicle] modernization fund. As you know, 
the National Guard uses the Humvees not only on overseas 
deployments but in their disaster response missions here at 
home.
    In my home State, Guard units were absolutely crucial to 
the response to Superstorm Sandy. Every year, significant 
natural disasters require National Guard response. In fiscal 
year 2020, Congress recognized the need to ensure the National 
Guard is fully equipped and ready to respond by appropriating 
nearly $1 billion for National Guard equipment and 
modernization.
    In fact, for more than 37 years, Congress has addressed the 
equipment needs of the National Guard by providing funding for 
improved equipment needed but not requested by the senior 
service of each. And at no time in those 37 years has the DOD 
explicitly gone against the will of Congress and abused the 
reprogramming authority like this.
    The most recent reprogramming zeroed out that 
appropriation, and I am concerned that this undermines the 
relationship between this committee and the DOD as well as 
undermines and undervalues the contributions of our National 
Guard. I think it also undermines our ability as a country to 
respond to natural disasters and thereby makes our citizens 
less safe.
    So, General McConville, what impact will these 
reprogramming decisions related to National Guard modernization 
have on the Guard's ability to respond to natural disasters 
here at home?
    General McConville. Well, as you know, it was $801 million 
from the Army that was reprogrammed, $100 million in HEMTTs 
[Heavy Expanded Mobility Tactical Trucks], $100 million in 
Humvees, and then $395 million out of the NGREA [National Guard 
and Reserve Equipment Account] fund for the National Guard, and 
$205 million out of the Reserve fund. And, you know, what that 
is going to--it was determined that the southwest border 
support was a higher priority than those elements and is----
    Ms. Sherrill. Not by Congress.
    General McConville. That is correct. And, you know, from 
our standpoint, what that is going to deprive is, as you said, 
the National Guard will not have those Humvees, the other units 
will not have those HEMTTs, and there were some other 
requirements that the National Guard from--a lot associated 
with--you know, from the capability to put out fires, the 
capability to conduct operations with night vision capability 
that were in the NGREA fund that will not be funded.
    Ms. Sherrill. And Secretary McCarthy and General 
McConville, I fully support the Army's focus on modernization. 
And I know Picatinny Arsenal is key in the development efforts 
for long-range precision fires [LRPF], which has been 
identified as the Army's number one modernization priority.
    Can you update the committee on the LRPFs, the programs, 
and how the Army is working with industry and academia to 
further modernize?
    Secretary McCarthy. Yeah. That portfolio in particular is 
performing very well from a tactical-range artillery, the 
Extended Range Cannon Artillery, which is on a pallet and pin 
system. We tested those out in Yuma last fall, doubled the 
range from about mid-30-kilometer range to north of 70, with 
wraparounds hitting with precision.
    The Precision Strike Missile, which was a--is the ATACM 
[Army Tactical Missile System] it is replacing, which is--at 
the operational level has twice the value. And we are--now that 
we are in a post-INF [Intermediate-Range Nuclear Forces Treaty] 
world, we will be able to prosecute distances in the north of 
600 kilometers. It conducted a test that was range constraint 
last fall and hit with precision at 240 kilometers. So it is 
going to increase this test regime in this calendar year. Very 
excited about that.
    And, in particular, from a strategic standpoint with 
hypersonics, this is a joint interest program, and I emphasize 
the word ``interest'' that we are working with the Navy, the 
Air Force, and the Missile Defense Agency. We are defining 
economies of scale and the buys. We are sharing test data.
    The teams are fully integrated. We have two test shots this 
year with hypersonics. And that we will--we are looking to 
field a battery by fiscal year 2023 deployable. So north of $1 
billion invested, just in this year alone. We are very excited 
and put a lot of energy behind the long-range fires portfolio.
    Ms. Sherrill. I will submit a question for the record 
because my time has expired. I would love to hear how you are 
partnering with industry and academia and further efforts on 
that. Thank you.
    [The information referred to can be found in the Appendix 
on page 77.]
    General McConville. Absolutely.
    The Chairman. Thank you.
    Mr. Mitchell.
    Mr. Mitchell. Thank you, Mr. Chair.
    And thank you both, gentlemen, for being here today. As my 
colleagues know, time is short, so I will get quickly to the 
questions.
    Let's continue on with the discussion of the Optionally 
Manned Fighting Vehicle. As you are both aware, I had the 
opportunity to meet with program leadership about that program. 
The Army had identified a need to update those, to get a new 
vehicle, began a prototype solicitation, and then surprisingly 
abruptly canceled that.
    The concerns I expressed, I don't know, a month, 6 weeks 
ago, were about schedule delays, cost overruns, and a dilution 
of the capabilities of that vehicle as we then go forward. So 
my question for both of you continues to be what guarantees the 
Army is going to offer that we are not going to see significant 
schedule delays and cost overruns, given we have canceled that 
and we are now going back to square one? Can either--anyone 
tackle? Whichever.
    General McConville. Congressman, I would like to take that, 
if I could. As you know, we took a step back from our approach 
on the Optionally Manned Fighting Vehicle. You know, some 
people--I would like to say we learned early, and we learned 
early before we invested a lot of money in the system, which 
was not the way we did things in the past.
    We learned that we were going down a road with requirements 
that industry could not meet, so we took a step back, we took a 
look at our approach, and what we have done is we have put out 
a paper on characteristics that we want vice requirements. As 
soon as we say ``requirements,'' what happens to industry, that 
means they have to meet the exact prescriptive requirement.
    So we have actually changed the process. We are talking 
about characteristics. We will go to an initial design and 
bring the field down small. We will go to a detailed design, 
which talks about simulation.
    Mr. Mitchell. And I agree.
    General McConville. And then we will go to prototypes, 
which will allow us to get the requirements right before we 
invest a lot of----
    Mr. Mitchell. What is going to happen to the schedule, in 
your opinion, General?
    General McConville. What is----
    Mr. Mitchell. What is going to happen in the schedule?
    General McConville. Well, I think the schedule----
    Mr. Mitchell. What delays are we going to have?
    General McConville. What I think is going to happen with 
the schedule is we have got a better shot of getting the 
vehicle we want in a more timely manner at the cost we need. So 
the schedule is set up to bring industry partners along, both 
those that are going to design the vehicle, but also those that 
bring technology into the system that may be non-traditional 
partners. And that is where we are going to get 
transformational change.
    Mr. Mitchell. I agree with your assessment about the 
process and the procurements. I sit with Mr. Banks on the 
Future of Defense Task Force. One thing that has been clear to 
us is that, as procurements have been done, we have not only 
talked about the problem, we have also identified, quote, 
``requirements'' that may or may not allow for innovation, and 
they have caused issues with procurement.
    In this case, we have at least one contractor, but several 
have put major money, significant money and energy, into doing 
a prototype. If we are going to--and now we pulled it. If we 
are going to get private sector money involved, we are going to 
get innovation needed from venture capital, those types of 
things, we need to focus more on laying out the problem and 
then let them come up with ideas rather than have them focus 
significant sums of money on a prototype only to be told we 
changed our mind. That certainly has not helped with getting 
people to invest, and assist us in what we need for the future.
    Secretary McCarthy. Congressman, that is exactly it. If 
you--where the chief and I got personally involved with this 
one in particular is we went and looked and adopted a similar 
acquisition strategy to that of the Integrated Visual 
Augmentation System, where we used the authorities that were 
granted to us by this committee, other transaction authority, 
where we could put more--create, allow the contractor to 
unleash the engineering talent of these companies to helping us 
solve the problem.
    So by bringing in more of these contractors, they can 
develop these prototypes. They can come forward and help us 
solve the problem. Because the points the chief was making, 
this is entirely about outcomes. And at times, when we go into 
the 5000 Series mode and it becomes ultra-specific on 
requirements, they are not going to bring their better ideas.
    So a lot of the changes that have been made over the last 
couple of years from the authorities you all granted, we are 
using them now.
    Mr. Mitchell. Well, let me restate today, I still await 
more specific details on adjustments in the schedule that was 
originally for this procurement, are they putting this in the 
field, frankly, and then what we anticipate for schedule/cost 
changes for this compared to what we originally projected. I 
still await those, I think the committee does as a whole, and 
we would like to see this as soon as you have a moment, some 
time to look at that. It is critically important, as you well 
know.
    Let me change gears a little bit, but similar theory. The 
advanced combat engine is another topic that is a concern. It 
is for a similar reason. There is an argument there that there 
is a commercially available, off-the-shelf engine that will do 
what it is that we are now trying to procure for and we are 
putting government money into doing. Have you looked at that? 
And why are we investing in developing our own version, if in 
fact there are engines that do that? I understand there are.
    General McConville. We will take--I know there are engines 
out there right now. That is part of the process about when we 
put characteristics. What we are trying to do with our 
acquisition system is change from a linear Industrial Age 
system where we develop our own. If industry has got it, we 
want to put the characteristics out there, so they can bring it 
in.
    What we are trying to do--and we are having success in a 
lot of the areas--is drive before we buy, and fly before we 
buy. And if they have an engine, what we are trying to get our 
acquisition professionals--bring it on in, show us what you 
have got, don't have it on PowerPoint slides, and then if it 
works, why not use it.
    Mr. Mitchell. One moment----
    The Chairman. The gentleman's time has expired.
    Mr. Mitchell. One moment, if I could. Just one second. I 
think you are having a problem with getting--because the people 
contend they have this, but I think you have got a middle layer 
that that information is not getting to you, and that I think 
needs to be a concern for all of us in terms of what we can 
spend on defense. So I appreciate your deference, and I yield 
back.
    The Chairman. Thank you.
    Ms. Torres Small.
    Ms. Torres Small. Thank you, Mr. Chair.
    And thank you, General McConville and Secretary McCarthy, 
as well as my colleagues, for recognizing the sacrifice of 
Sergeant First Class Antonio Rodriguez. At his services in Las 
Cruces, I was struck by the family's love and sorrow and pride 
in him and the impact that had on his broader family in the 
community, from school kids just across the street from where 
the services were to his brothers and sisters in arms.
    And that sacrifice reinforces for me all of our 
responsibility to protect our soldiers, both with the current 
threats that they face and the threats that they will face in 
the future.
    And to that end, I have been reviewing the budget for the 
Army modernization programs, and it appears to be a mix of good 
and bad news. The good news is that the Army has increased 
production of proven systems and shifted about $31 billion over 
Future Years Defense Program into higher priority modernization 
programs. But the Army still appears to be several years away 
from having new generations of systems and production.
    General McConville, what, briefly, is the Department's plan 
to move from testing to production and training for use of 
these weapons?
    General McConville. Well, we think we have got a very 
aggressive method to get after the production. One of the 
things that--you have given us the authority to do this with 
these other transaction authorities is the training is 
happening right now. So as we develop these new systems, 
soldiers are on them, and soldiers are telling us where we need 
to go.
    And, you know, what we are trying to do is get the 
prototype. The way we used to do it was we would have people 
sit around for 5 to 7 years and write a prescriptive 
requirement document that might fill, you know, up to the top 
of this roof. And what would happen is industry would go down 
for the next 5 to 7 years trying to meet those requirements 
without much feedback from the operators that were going to use 
it.
    And then we would end up with something, you know, 10, 12, 
15 years from now, which was really no longer relevant to what 
we want to do.
    Ms. Torres Small. And I agree with you, 10 to 15, 12 years, 
is no longer relevant.
    General McConville. Right. So the systems--we are looking--
--
    Ms. Torres Small. I am pleased to hear that it is 
aggressive.
    General McConville [continuing]. At 2 or 3 years right now. 
The Secretary and I have talked. You know, the hypersonics, we 
are going to--we are going to be fielding a battery, a mobile 
battery, in 3 years.
    Ms. Torres Small. I am pleased to hear that you will be 
fielding a mobile battery of hypersonics in 3 to 4 years.
    Now, our near-peer competitors, like China and Russia, are 
testing and fielding these types of weapon systems at a faster 
rate than the United States. Given that, just in a few words, 
what is the Department's level of priority to implement your 
plan of 2 to 3 years?
    General McConville. Well, I think as far as like long-range 
precision fires and hypersonics, it is the number one priority. 
We are moving out very quickly. I think we will see some news 
very shortly on where we are on that over the next couple of 
months and----
    Ms. Torres Small. Thank you. And number one priority, I am 
excited to see the announcements coming up in the next couple 
of months.
    General McConville. Sure.
    Ms. Torres Small. We are investing in this next generation 
of weapon systems to deter great power conflict. And at the 
same time, we also need reliable force structure, given the 
high level of day-to-day deployments in Afghanistan, Iraq, and 
dozens of other global hotspots.
    How do we balance modernization and readiness?
    General McConville. Well, it is really three things. It is 
readiness, modernization, and end strength. And so--and what we 
are doing when it comes to end strength is we have modest 
growth. We could sit here and tell you we need this many 
people, but we know we are not going to get them. So we are 
making sure that every person counts that is in the Army, they 
are deployable, they are fit, and they can do their job.
    As far as readiness, we are invested in readiness in the 
units that are most likely to go to combat because we have got 
to make sure we are ready now. We saw that with the 82nd 
Airborne Division. And at the same time, we are going to have 
to divest very carefully systems that preclude us from 
investing in the future. We must invest in the future. We have 
done simulation experimentation to look at our future systems, 
with the concepts we are going to have, and that gets us the 
results that we need to have.
    Ms. Torres Small. Thank you, General McConville. And I 
appreciate that you are investing effectively and targeted. And 
would you agree, as Secretary McCarthy mentioned, that every 
bullet counts when it comes to priority?
    General McConville. Every person counts. Every dollar 
counts.
    Ms. Torres Small. Every dollar counts. So you just told me 
about how we need to invest in next-generation weapons, 
especially hypersonic missile testing, and that every dollar 
counts.
    Just last year White Sands Missile Range [WSMR] lost $40 
million in MILCON funding for a new consolidated information 
and technology facility when those funds were redirected to the 
border wall. The current IT facility at White Sands was built 
in 1962. It recently suffered from a fire because of an 
overloaded system. So the new facility was supposed to support 
new missile and weapons tests, including hypersonics. Without 
the new facility, the DOD could fall behind on its testing 
requirements.
    General McConville, have you discussed the impact of the 
outdated IT facility with WSMR?
    General McConville. I have not.
    Ms. Torres Small. How will the delay of the construction of 
IT facilities impact research and testing of new weapon 
systems?
    General McConville. We will have to take a look. I will 
have to talk to them and make sure we understand. As we put the 
tests together, with hypersonics and some of the other systems, 
they will go to the tester that has the appropriate amount of 
equipment to do that.
    Ms. Torres Small. I would like to get some additional 
information for the record. Thank you.
    [The information referred to can be found in the Appendix 
on page 78.]
    General McConville. Okay.
    The Chairman. Thank you very much. And I actually was 
visiting White Sands. I think that is a crucial issue. I mean, 
this is why the MILCON issues are important. They prepare us. 
They are part of readiness. In this case, the testing out there 
is enormously important to just about everything you do, make 
sure it works. So getting that up to date quickly is enormously 
important.
    With that, Mr. Banks.
    Mr. Banks. Thank you, Mr. Chairman.
    A moment ago, Mr. Mitchell mentioned our work on the Future 
of Defense Task Force. We are nearing the end of our task 
force. I co-chair it with Mr. Moulton on the other side. It is 
a purely bipartisan effort. As we near the end of our task 
force, all along the way we have been working closely with the 
Defense Innovation Board and other organizations to implement 
personnel changes and technology upgrades all across the 
Department.
    The Defense Innovation Board recommended that the DOD, 
quote, ``create various education and training opportunities 
for senior leaders to understand new technologies and 
innovation methodologies such as data science, artificial 
intelligence, machine learning, lean startup, and design 
thinking.''
    Mr. Secretary, as you noted in your joint statement, quote, 
``The Army can no longer be an Industrial Age Army in the 
Information Age. We are shifting from simply distributing 
personnel to more deliberately managing our soldiers' and 
civilians' talents.''
    I wonder, Mr. Secretary, if you could comment for a moment 
on how the Army's Talent Management Task Force is doing in 
aligning with the recommendations of the Defense Innovation 
Board to educate senior leaders on capabilities such as 
artificial intelligence.
    Secretary McCarthy. Yes, sir. Also, if I could ask that 
General McConville get to comment. The task force was his idea, 
so he has been the champion of this for several years now.
    Really, a couple of factors. We need an integrated 
personnel and pay system. If you were to evaluate an individual 
today, you get an officer record brief and it will say 82nd 
100th person to get jump wings. You don't really have enough 
information about an individual to make the best decision 
possible. Is this the right person for the right job?
    It is also an opportunity for the individual to know a lot 
about themselves, so for career management. Some of it also is 
philosophy and the manner in which we select individuals.
    And, Chief, do you want to talk to them about the Battalion 
Commander Assessment Program?
    General McConville. Sure. Thank you, Secretary.
    We are in a war for talent right now in the United States 
Army. Okay? And we are aggressively going after that. And the 
good thing is when we are competing for young men and women is 
they are not necessarily motivated by compensation. They are 
motivated by purpose, and they are motivated by being on a team 
and they want to make a contribution.
    I would argue that the problem with our personnel system--I 
talked about this--it was Industrial Age. It treated everyone 
the same. Young men and women don't want to be treated the 
same. We have tremendous talent in our National Guard and 
Reserves that is masked because they are a sergeant of infantry 
or a captain of engineers.
    We look behind the curtain, we find out that they own an 
engineering design firm or they are data scientists or they 
have all of these incredible capabilities or they are good at 
infectious disease. And so what we need is an Information Age 
system that we are implementing right now in the National Guard 
that is going to go to the rest of the Army, the Integrated 
Personnel and Pay System, where we can recognize people by 25 
variables, not 2 variables, on what their knowledge, skills, 
behaviors, and even the notion of what their preferences are, 
what they want to do and where they want to go. And we think 
this is the best way ahead, and we appreciate your support of 
the Integrated Personnel and Pay System.
    Mr. Banks. I agree with you very much. Let me shift gears 
for a moment. The Army has indicated that it plans to invest in 
advanced lasers capable of firing at higher power levels. The 
laser head is a core piece of a directed energy system, so 
these are critical investments.
    However, I am concerned that similar efforts are not being 
made to invest in systems that power and cool these systems. In 
fact, DOD leaders have indicated thermal management is among 
the most significant challenges in directed energy development 
and could take millions of dollars and years of development to 
complete.
    Mr. Secretary, why is the Army not pursuing a power and 
thermal management development plan knowing that that delay 
could add years to the fielding of directed energy systems?
    Secretary McCarthy. Sir, we have been successful with a 50-
kilowatt laser test on the Stryker vehicle. We are looking at 
how can we integrate upwards of 100 to 150 kilowatt on the same 
platform.
    To your point, much of the challenge is the cooling--the 
integration of what would be the propulsion capability to 
execute the shots. But the big challenge for us is the 
platforms and our formations.
    General Neil Thurgood from our Rapid Capabilities and 
Critical Technology Task Force is developing plans on that, and 
it will be reflected in our budget submittals in the future.
    Mr. Banks. Okay. That is all I have got. Thank you very 
much. I yield back.
    The Chairman. Mr. Crow.
    Mr. Crow. Thank you, Mr. Chairman.
    Secretary McCarthy, General McConville, appreciate your 
continued service to the country.
    At the beginning of the testimony, General McConville, you 
mentioned that we have 190,000 troops in 140 different 
countries. We also have over 20,000 joint troops deployed as 
part of Defender Europe right now throughout Europe.
    Sitting here today, are you comfortable that the Army has 
sufficient coronavirus test kits, medical supplies, and the 
training, both OCONUS [outside contiguous United States] in our 
forward-deployed locations, but also at our posts throughout 
the world, to address the threat?
    General McConville. Well, we want to make sure we have 
more, Congressman. I am never satisfied with what we have. We 
are going to great lengths to mitigate the risk of all of our 
soldiers. You know, we are concerned about South Korea. We have 
stopped exercises. We are very concerned with some of our 
troops coming out of Italy. We have adjusted exercises.
    And one of the things that we are doing with our task force 
is they say that they have the capability to rapidly develop 
tests that can handle a much larger in scale. So I am not--I am 
never satisfied with what we have. I think we can do better, 
and we want to make sure that our soldiers and families have 
every capability to protect them against this virus if it comes 
their way.
    Mr. Crow. What do you need to do? What needs to be done, I 
would say, to make sure that you are satisfied, in a place 
where----
    General McConville. Well, I think what is being done is--
the Secretary talked about these experts that at least we 
have--that work for the Army that have told us in about 2 or 3 
months that they can develop--you know, with the right 
resources, and we have given them the resources, to go ahead 
and develop a test capability that is much larger in scale. We 
can do it small numbers now, 50, 60, so many a day, but we need 
to get up to thousands where we can really turn these.
    We have the capability to test now, but I want to be sure 
that the tests are, you know, 100 percent. People say you will 
never get to that, but we have certain screening that we are 
doing for all of our soldiers coming back from Korea. We just 
had the 3rd Brigade of the 1st Cavalry Division come back, and 
they are getting screened all along the way, so we don't have 
someone----
    Mr. Crow. Every soldier is being screened?
    General McConville. Yes. Yes, Congressman. Every soldier is 
being screened at multiple times during the redeployment to 
make sure that they don't have a problem with----
    Mr. Crow. Let us know, you know, if there are additional 
resources that are needed to deal with it. And we said the same 
thing to Secretary Esper and General Milley last week as well.
    Shifting gears here, Congressman Lamborn, at the beginning, 
was absolutely right in the opening statement that our reliance 
on certain fossil fuels is a vulnerability for us. The same 
applies for our installations as well. Actually, Congressman 
Bacon and I just started a Military Resiliency and Energy 
Caucus--that is MRE Caucus--which we are very proud of. It is a 
bipartisan effort to address this issue of our installations.
    So I know the Army--a couple of installations, including 
Fort Hood, have gone to micro grids and trying to not only 
reduce operating costs, reduce carbon footprint, but also 
increase resiliency and address the threats from cyberattack as 
well.
    Can you both comment on what the next phase of that 
buildout would be and what you are doing to move that forward 
with haste?
    General McConville. Well, we have other posts. As you may 
know, Hawaii has a power plant there on post that we can use. 
Fort Knox went to natural gas. They have that capability. And I 
will defer to the Secretary, but we have many posts that are 
very concerned about the ability for resilience, and also low-
cost energy.
    Secretary McCarthy. No, sir. To the chief's point, we have 
looked at this being a priority for the FORSCOM [U.S. Army 
Forces Command] installations, in particular, and then we will 
continue to flesh out a plan, put more investment towards this.
    Mr. Crow. Is there more investment that is needed? I mean, 
do you need more resources from Capitol Hill to actually 
expedite those efforts?
    Secretary McCarthy. I have to get more particulars for you, 
sir. But it would probably be good if we came and sat down with 
the caucus in particular, and it would probably be a good 
starting point.
    Mr. Crow. Because what we do know is that, when we make 
those investments in the front end, it actually reduces 
operating costs on the back end. So you look at long-term 
costs. Those are investments that we could make that could 
actually reduce overall fixed costs in the future and free up 
resources for other efforts as well.
    And then just last, dovetailing on Mr. Banks' thoughts on 
recruiting, we haven't been meeting our recruiting goals. We 
are projecting an increase in force structure. It is a tough 
job market. We need to hire, you know, talent that can address 
21st century technology. What are we doing to change the model 
of recruiting to do those things?
    Secretary McCarthy. Well, Congressman, you helped us in 
Denver, just last fall. But we changed our strategy to 22 
cities around the country. We are engaging civic leaders. We 
changed our marketing firm to address the types of 
opportunities that exist in the U.S. Army, 150 different 
operational specialities, advancement in education, opportunity 
in financing for advanced education.
    A lot of it was, is just getting more in touch with the 17- 
to 24-year-old generation. And it is also senior leader 
involvement. The chief and I go out to cities. We go with 
Members of Congress, and we meet with civic leaders to help us 
talk to those influencers to encourage young men and women for 
a life of service.
    Mr. Crow. Thank you.
    Secretary McCarthy. Yes, sir.
    The Chairman. Thank you very much.
    Mr. Gallagher.
    Mr. Gallagher. Thank you.
    Secretary McCarthy, you recently said, at CSIS [Center for 
Strategic and International Studies] I believe, that Army 
modernization costs and personnel costs are on a collision 
course, yet you are proposing to add an additional 2,400 Active 
Duty soldiers to Army end strength. Can you explain how you 
plan to mitigate that collision course?
    Secretary McCarthy. Yes, sir. When you have 1:1 dwell, BOG 
[boots on the ground]-to-dwell time, we have to increase the 
size of the force. And we are on a trajectory to hit 492,000 in 
the Active force by the end of this FYDP [Future Years Defense 
Program].
    But the point that I was trying to emphasize, without an 
increased top line, under current demand we will be faced in 
2022 or 2023 with flattening end strength, tiering 
modernization, or reducing our ambition within our 
modernization efforts.
    Mr. Gallagher. General McConville, could you explain the 
logic behind the Army requesting $364 million to do a division-
size Defender Pacific exercise in the Pacific? In other words, 
is there--how do I put this? Is the Marine Corps not currently 
postured to perform defensive and offensive missions in 
INDOPACOM [U.S. Indo-Pacific Command] such that Army needs to 
fill the void?
    General McConville. Well, first of all, the Marine Corps is 
a fabulous service. It does great things for the country, and I 
think we work together very, very closely. But what the Army 
brings is it brings mass, it brings a large capability.
    And, again, you know, as we look at the National Defense 
Strategy, the priorities are China and Russia, and our partners 
out there in many of the leaders in the countries that--you 
know, whether it is Thailand or it is the Philippines or it is 
Indonesia, their armies want to work with us. And so I think it 
is very, very important that we demonstrate that we have the 
ability to move forces into that region, that we have the 
capability to train and interoperate with these countries that 
want to be our friends and partners, and that is what the 
importance of this exercise is.
    Mr. Gallagher. So, in simplest terms, what would the Army 
do in a no-kidding WESTPAC [Western Pacific] contingency, for 
example, a war with China over Taiwan?
    General McConville. Well, I think what the Army does is it 
provides deterrence, just like, you know, if you want to go 
back to World War II, not that we are going to take islands, we 
don't know as far as what the threat is going to be, but here 
is what we do know is we know that the countries in the region 
that border the South China Sea want the Army's capabilities.
    Right now they want our security force assistance brigades. 
They want us to advise and assist to build their capabilities. 
They want our multi-domain task force capabilities, at least 
the COCOM commander does. And almost to a country--and many of 
the ones I have met with--they want to train with our soldiers.
    Mr. Gallagher. Secretary McCarthy, how does the Army plan 
to meet what is its primary joint mission, if I read correctly, 
in INDOPACOM, which is to defend our airbases and logistics 
hubs against low-flying cruise missiles?
    Remember, in this committee, we identified that as really 
the modern day missile gap. In other words, we can shoot down 
IRBMs [intermediate-range ballistic missiles] and SRBMs [short-
range ballistic missiles]. We can hit high-flying cruise 
missiles with Patriots. But we can't--that gap is that low-
flying cruise missile. How do you intend to address that gap?
    Secretary McCarthy. Two ways, sir. First and foremost, you 
have to have the footprint in that area of the world. So 
getting our forces west of the International Date Line with 
greater duration is critical. So the points the chief was 
making about the relationships--is it expeditionary basing, is 
it longer duration of the deployments in places like Thailand, 
the Philippines, and others. So that is critical.
    The second, to your point, we are pursuing the Iron Dome 
system. We kind of have left our options open on the outyears 
with IFPC [indirect fire protection capability] because we need 
to get more data from the manufacturer, so we can see if 
adjustments have to be made to that system in order to meet a 
cruise missile threat.
    Mr. Gallagher. What early successes could you point to for 
those who might be skeptical about the future of Army Futures 
Command?
    Secretary McCarthy. Like all things, sir, it is new. It has 
to prove itself and deliver the results. But I think if you can 
look early on is that it has brought all of the stakeholders of 
the modernization continuum together, and it has got 
warfighters at the seat at the table talking about the 
characteristics of the weapon systems that they need. But it is 
as much materiel as it is the way that you fight, and 
recognizing that materiel will change the operating model.
    So it has been critical to do this because, you know, 
obviously, we have been very busy the last 19 years, but 
changing our organizational construct so that the warfighters 
are at the table driving these materiel efforts in particular.
    Mr. Gallagher. And for those who would point out that kind 
of Boston and Silicon Valley are really the hubs for this type 
of stuff, do you still think Austin is the place?
    Secretary McCarthy. Absolutely, sir. We have footprints, 
that we have the Center for Army Analysis out at Berkeley, we 
have research at MIT [Massachusetts Institute of Technology]. 
We have strong relationships there. And then Austin is one of 
the most entrepreneurial cities in America. We have a strong 
partnership with the University of Texas, which is a top-tier 
engineering and business school.
    We are partnered with Capital Factory, which is an 
entrepreneurial footprint where you bring in small, medium-
size----
    The Chairman. I am sorry to interrupt. The gentleman's time 
has expired.
    Ms. Houlahan.
    Ms. Houlahan. Thank you, Mr. Chair.
    And thank you, gentlemen, for coming. I am going to follow 
up on some of the questions of Mr. Crow, as well as Mr. Banks, 
regarding talent and specifically tech talent.
    Last year, I introduced a bipartisan Armed Forces Digital 
Advantage Act, which establishes a policy to recruit, retain, 
and promote tech talent and digital expertise at the DOD. Much 
of the bill was enacted last year in section 2030 in the NDAA.
    So I guess my questions, to follow-on on Mr. Banks and Mr. 
Crow's questions are, I did have the opportunity to go to--not 
related but somewhat related--the JAIC this week, and they did 
talk significantly about the struggle for tech talent, 
specifically about security clearances and the speed with which 
they were able to attain them and the fact that people were 
basically disappearing on them because they didn't want to 
wait, or onboarding problems where it was a struggle to get 
people hired fast enough before they had five or six other 
offers.
    And then, frankly, they also talked about this--I know the 
narrative is that, you know, we are all patriots and we like to 
serve, and I served as well as an engineer, but the reality is 
when it is 2, 3, 5 times, 10 times salary differential, there 
is a struggle when you are trying to make that decision of 
service.
    So can you talk a little bit about, since you are the 
largest service, what you are doing in these areas to make sure 
that we can retain and recruit tech talent?
    Secretary McCarthy. Yes, ma'am. I would also like the chief 
to weigh in, if I could. We are partnering closer. We put 
footprints forward, like Artificial Intelligence Task Force, we 
put it on the campus of Carnegie Mellon University. We are on 
the campus of the University of Texas. We are trying to get 
closer to academia, so that we can try to encourage young men 
and women when they are in those formative years, like in 
college or graduate school, for opportunities in the civil 
service as well as the uniformed side of the house.
    It is very challenging. Compensation is dramatically 
different from just a financial standpoint. There are 
authorities that have been granted by this committee that we 
can use to make them highly qualified experts and others. But 
still, it presents a challenge. You know, getting us better 
relationships with business and academia has been key, and we 
have been successful in a handful of instances.
    Chief.
    General McConville. I think it is really important that we 
expose these young--these extraordinary young men and women to 
the Army. And you have given us the authorities now to do 
things like direct hiring, you know. And we talk at our level--
we are talking about data scientists. I mean, that is one of 
the biggest things that we need to get.
    We have been working with cyber, same type thing, and the 
system needs to be more flexible. You know, again, we have 
Industrial Age personnel, and I was former G-1 [Deputy Chief of 
Army Personnel]. We are trying to change that as we go forward. 
But what we have found is, you know, we--it is an anecdotal 
example, but for cyber sergeant, only about 10 of them in the 
world that can do what this sergeant can do. He wanted to stay 
in the Army, even though he is getting mid-six-figure offers. 
He said he would stay in the Army if we made him a GS-13 
[General Schedule 13].
    Now, the system initially was not going to do that because 
that is not what our system does; because he is an E-5, he 
should be a GS-6. But we have the capability to make him a GS-
13. He is staying in the Army.
    He can only do things that he is doing in cyber in the 
Army. No other place can he do that legally. And those are the 
type of things that we offer is----
    Ms. Houlahan. Is there more that the Congress can authorize 
you to do? They commented at the JAIC that there was concern 
that we wanted to be able to create a number of billets that 
would exceed the Vice President's salary as an example. Are 
there other things that we can do to make sure that we retain 
these talented people?
    General McConville. I think that we are really looking hard 
at where we can direct-hire. We have done that for the 
engineers. The engineers now can do a lot of direct hiring. We 
have just got to make sure with these precise areas we can do 
the direct hiring that we need to do. Just like you said, you 
know, we go to a lot of these engineering forums, and they had 
it--before, when we went, okay, in 6 months we will try to get 
you on board. Now they can hire right away, but the direct 
hiring has a lot of capability.
    Ms. Houlahan. I am sorry. With the last minute of my time, 
I wanted to completely change gears and talk about family 
housing and barracks. The budget that you all put forward 
states that the Army looks to address family housing and 
barracks, yet it looks like, according to the budget that you 
have put forward, you are looking to increase personnel but 
reducing family housing, your request by $62 million, in MILCON 
by $810 million. How do you reconcile that difference where you 
would like to increase the number of billets but you are 
decreasing the ways that you are supporting them?
    Secretary McCarthy. We have to recapitalize about a third 
of the housing from--that are managed across our portfolio. And 
what we are looking at is some of these homes just have to be 
taken down. And what we are looking at is potentially external 
financing options through the companies that manage the on-post 
housing today, because it would require north of $10 billion to 
essentially recapitalize the homes across the entire Army.
    Ms. Houlahan. So the answer is you are looking to private 
industry to solve the issue?
    Secretary McCarthy. Well, we are looking at potential 
options there, because of just the astronomical cost it would 
take to recapitalize the entire footprint.
    Ms. Houlahan. I have run out of time, but I would really 
like to have a follow-on conversation about you because the 
private industry solution hasn't seemed to be working for us in 
the housing area. But I have to yield back. I appreciate it.
    Secretary McCarthy. I will reach out, ma'am.
    The Chairman. Thank you.
    Mr. Kelly.
    Mr. Kelly. Thank you, Mr. Chairman.
    Mr. Secretary, Chief, it is great to see you all today. I 
want to start out just by talking a little bit about you, 
General McConville, and I get to see you up close sometimes and 
it is great. And, General McConville, this is for all of those 
soldiers out there. I hope they are listening. It is people 
first, winning matters, and Army strong. And you mean that.
    And I want you to talk a little bit about that, because I 
know how much people--and I got to sit in when you talked about 
what you are doing for housing and all of those things that 
matter. And so I know that you are engaged in those, and thank 
you for that, because people truly matter to you, and I 
appreciate that.
    But talk a little bit about what we are doing for data 
mining, and a little bit about your Battalion Commander 
Assessment Program. Just had General McGee in yesterday, great, 
great program, and what you are doing in talent management, 
because you have got some great ideas that are going to be the 
Army of the future.
    General McConville. Well, thank you, Congressman, and, 
again, the Army is people. It is our most--it is our greatest 
strength. It is our most important weapon system. When I am 
talking about people, I am talking about our soldiers from the 
Regular Army, from National Guard, and from Reserves. The point 
I make is 53 percent of our soldiers are in the Reserves. We 
should never forget what they do for us.
    And 88 percent of our sergeants above have families, so we 
cannot forget about our families. And we have 249,000 
Department of the Army civilians who labor every single day, 
making things happen for us. And we cannot forget our soldiers 
for life, our retirees and our veterans, because we have an 
obligation to them.
    So those are our people, and the feeling is that if we get 
our people in the right place, the right time, doing the right 
thing with the right resources, everything else follows. We 
will have readiness, we will have modernization, and we will 
have reform. And that is why our people are so important.
    Now, I can talk a little about, you know, what we are 
trying to do as far as the Battalion Commander Assessment 
Program. Picture right now the NFL [National Football League] 
Combine is going on. We just did ours, but what we did is we 
took our battalion commanders who I consider the most 
consequential rank, because they influence the people below 
them, they are also our future leaders, and we ran them through 
a 5-day assessment, a 5-day assessment to make sure that they 
had all of the attributes that we thought they needed to be 
successful battalion commanders, and we had very good results 
from that.
    Mr. Kelly. I am a great supporter of that program. I do 
have--my one concern is, like everyone else, I don't like the 
way that we went about this reappropriation of the budget. And 
I think the Guard took a huge hit on that, and it is hard to 
build trust when you tell guys we are going to field you in the 
future, but we are going to take away what we are going to 
field you.
    So when we are talking about NGREA and those things, there 
is some long-term trust that we have got to work on. And I 
think, General McConville and Secretary McCarthy, I think you 
guys can help us if you let us know what your plan is, so that 
we don't lose a readiness gap in the Guard and Reserve in 
equipping and manning and all of those things. So I will take 
that for the record.
    [The information referred to can be found in the Appendix 
on page 78.]
    Mr. Kelly. The other thing I want to talk about is the 
Futures Command, and General Murray is doing great, great work 
down there. And I like what we are doing, and I hope you guys 
will brief us on where you are. But I want to make sure we are 
focusing on engineer equipment. You know, we are doing Defender 
2020. I have got--my old engineer brigade is going downrange to 
support that. But the most complex things we do in war as an 
Army is river crossing and complex breaches. And I am not sure 
that our engineer equipment is any different today than it was 
when I got in as a second lieutenant in 1988.
    What are we looking at in Futures for engineering 
equipment?
    General McConville. That is a great question. And one of 
the reasons that we are going to Europe, and one of the reasons 
we are doing a wide gap crossing right now, is to demonstrate 
that we actually need that capability. A lot of the places we 
have been for the last 20 years conducting operations, we 
didn't do those type of--we didn't need that type of equipment. 
And when it came to priorities and you only have so much top 
line, you go to where you need.
    But as we move into great power competition, and we look at 
the type of forces that we need to deter those potential 
adversaries, engineering equipment and even engineering units 
are absolutely key. We brought them back into the BCTs [brigade 
combat teams]. We got rid of them. We are bringing them back. 
And we are taking a look at the--we have recognized some of the 
gaps and we are going to put some programs together to fill 
those gaps.
    Mr. Kelly. General McConville, I am going to leave my last 
just on kind of--on a comment, but you are from the great State 
of Massachusetts, and we built our Army on the Massachusetts 
Militia. The first Active Duty Army was built on the 
Massachusetts Militia.
    We are a great Army, and we have never won a war that we 
have not engaged our National Guard. And so I just ask that 
when we are fielding and equipping, they are an operational 
force, and we have to equip them and man them. And then we also 
have to be cautious, but please--and I know you are doing that, 
but thank you for what you are doing.
    The Chairman. Thank you.
    Mr. Cisneros.
    Mr. Cisneros. Thank you, Mr. Chairman.
    Mr. Secretary and General, thank you both for being here 
today. Mr. Secretary, I will start with you. Understanding the 
Army's desire to transform itself in the newly proposed multi-
domain operation concept, this will require the Army to fully 
integrate with other services and have access to national-level 
capabilities. What is the level of buy-in and resourcing do 
you--do you have from the Department of Defense and the other 
services?
    Secretary McCarthy. Sir, we meet on this topic every Monday 
with Secretary Esper, the chief, service secretaries, the 
unders, beaming in the COCOMs. The big part of us getting to an 
NDS implemented force is the joint warfighting concept. And you 
really look at two lines of operation there. In ``the Tank'' 
where the chiefs are going to look at this, that is how our 
disposition worldwide, the types of capabilities we need to 
meet the operational plans. General Milley is driving that.
    And then, internally, to the business side, we have to look 
at our architecture, and then how do we communicate? That is as 
much as the--our integrated battle command system being 
complementary to the advanced battle management system that the 
Air Force is driving. So it is a command and control 
capability, but it is also the space.
    We are going to need a common transport layer within the 
satellite architecture, so that we can transfer the data, which 
will ultimately be cloud driven. So, as I mentioned in my 
opening remarks, cloud architecture is something we are 
pursuing in the Army. The vice chief and Acting Under Secretary 
McPherson are the two running point on this for the Department.
    So cloud architecture, our complementary command and 
control nodes, our disposition worldwide, as some of the 
questions we had before, where are our forces? Terrain matters. 
And then, ultimately, the satellite architecture.
    Mr. Cisneros. All right. Thank you.
    General McConville, in fiscal year 2019, the Army 
experienced a total of 55 Class A mishaps and 61 Class B 
mishaps, which resulted in 28 casualties and approximately $362 
million in damage or lost equipment. These mishaps occurred in 
training and operational environments and were not combat 
losses. While it is understood that military training is 
inherently dangerous, the committee is concerned by these 
recent trends and questions as to whether changes are required 
to training program safety standards and/or range safety 
practices.
    Can you comment on any reviews currently underway to review 
the safety of the Army training or any initiatives being 
implemented to improve safety and reduce the number of mishaps?
    General McConville. I can, Congressman. I am very, very 
concerned about some of the training exercises we had where we 
are starting to have vehicles rolling over and people not 
wearing seatbelts, and we lost some soldiers very tragically. 
And some of this is getting back to being around very large, 
expensive equipment, where we started maneuvering our forces, 
which was very different than what we were doing before.
    All of a sudden when you have armored vehicles moving in 
very difficult terrain, we had to get back to some of the 
basics. So the focus is really bottom-up focus. It is getting 
back to the squad level. It is getting back to the team level. 
It is giving the junior leaders a chance to learn how to do 
their jobs. Many of our more mid-rank and senior leaders are 
very, very experienced. You know, they have got multiple combat 
tours. They have been doing this business a long time.
    But we bring 130,000 soldiers into the Army every single 
year. They are coming right off the block. They need time to 
learn how to drive their vehicles. They need time to learn how 
to maneuver the vehicles. And that is a changing focus that we 
think is very, very important, because we are not satisfied or 
certainly we have got to fix that. We cannot have that many 
accidents. We cannot lose soldiers in training, and we are 
doing everything we can do to fix that.
    Mr. Cisneros. So was there anything that you implemented? I 
mean, was there an overview of procedures or----
    General McConville. Well, there certainly was an overview 
of procedures. But as you do the analysis, if you find out that 
we are in vehicles and we are rolling over and we are not 
wearing our seatbelts--and if you are wearing your seatbelt, 
you survive, if you are not wearing your seatbelt, you don't. I 
mean, some of that is just basics that we need to get back to.
    If you are in an assembly area and you are not ground--
guiding your vehicles, and at night you start to make these--
you make these mistakes that can result in tragedies that 
should not happen in the unit, this is basic soldiering. And we 
don't necessarily need to change our policies. We need to 
execute them and make sure that we have given our soldiers at 
the lowest level the training that they need to do to make sure 
that they are successful on the battlefield.
    Mr. Cisneros. All right. Thank you, General.
    And just real quick--I have got 12 seconds left here--but, 
you know, we have talked before previously with both of you 
about the diversity in your officer corps and what you are 
doing. You are implementing it. Would love to come and talk to 
you more about that when we have some time.
    The Chairman. We will have to take that for the record.
    [The information referred to can be found in the Appendix 
on page 78.]
    Mr. Cisneros. Yes. Thank you.
    The Chairman. Mrs. Hartzler.
    Mrs. Hartzler. Thank you, gentlemen, for your service. I 
want to start off talking about munitions. And, General 
McConville, we obviously have significant challenges in both 
capacity as well as capability, and our stockpiles have really 
been used in the last 15 years.
    So I was wondering, what is your assessment of the risk in 
the Army's precision-guided and preferred munitions request?
    General McConville. Well, we have done a lot of work over 
the last 2 years. We have put billions of dollars into 
munitions, and I think that as we do an assessment of a 
possible situation that we would have been in, we quickly 
realized that we needed to invest in munitions, and we stood up 
that capability.
    We are doing an assessment right now to make sure that we 
have the right amount, you know, as we look at what is the best 
strategic way to take the amount of munitions we have so that 
each combatant commander has the necessary munitions in place, 
and we continue to invest in that as a priority within the top 
line that we have.
    Mrs. Hartzler. Yeah. So along with that is the industrial 
base. So what specific actions are you taking to manage 
stability, capability, and capacity risk in the U.S. munitions 
industrial base to include reducing critical supply chain 
dependency sourced from outside the United States?
    General McConville. Now, you know, in fact, General Perna 
is working that very, very closely. He is our AMC [Army 
Materiel Command] commander, and he has been taking a look at 
that exactly. We do not want to be dependent on one chain. We 
are doing some other things that when we look at where--how our 
ammunition is manufactured, where it is manufactured, and 
trying to keep competition in the system.
    Mrs. Hartzler. Good. I think that is key, so I am glad to 
hear that.
    Secretary McCarthy, I understand that Army Futures Command 
has reached full operational capability, and I recognize the 
good work that the cross-functional teams are doing with 
respect to modernization.
    But looking ahead, logistics and combat enablers, such as 
Army engineers that we just had a discussion with 
Representative Kelly about, they are going to be critical to 
any future conflict against a peer competitor.
    And I know, General, I was encouraged to hear your response 
to my colleague that engineers are key, and that you are saying 
that programs to fill the gaps, you are seeing some gaps 
perhaps in the exercises that are going on over in Europe.
    So this fits right in with my question. Are there any plans 
to stand up a cross-functional team that could be focused on 
logistics, equipment, modernization? And, if not, what is the 
Army currently doing--maybe you can expound on the programs to 
fill the gaps--to address these challenges related to logistics 
and combat enablers?
    Secretary McCarthy. Ma'am, we wrestled with this a lot when 
we stood up--we made the six priorities and ultimately 
established the cross-functional teams. But what we recognized 
was that you needed representation on the cross-functional 
team, logistics, a leader that would represent that stakeholder 
on every one of the teams.
    And General Perna handpicked these individuals, put them on 
these teams, because when you are developing these new weapon 
systems, it may require different enablers. So being on the 
front end of the process for most of the 31 signature systems, 
we thought it was best to have the individuals being 
represented. He has a hands-on approach, obviously, in all 
things that he does.
    But one of the things in particular we are looking at is 
just how we--in the modernization enterprise, having a very 
senior configuration steering board, representation at the 
three-star level of the Futures and Concepts [Center] director, 
Eric Wesley; Combat Development, General Richardson; and Paul 
Ostrowski in ASA(ALT) [Assistant Secretary of the Army 
(Acquisition, Logistics and Technology)]; Daly, the deputy of 
AMC----
    Mrs. Hartzler. Due to time, can I----
    Secretary McCarthy [continuing]. So you have all of the 
stakeholders there.
    Mrs. Hartzler [continuing]. Can I interrupt you? So who is 
on that team that is addressing the engineer issues and with 
logistics and enablers?
    Secretary McCarthy. General Ed Daly is the three-star, the 
deputy commander. So, at that three-star level, there is about 
six individuals that are key with driving all of these changes 
across the modernization continuum.
    Mrs. Hartzler. General, can you expand on what programs you 
are doing to fill these gaps?
    General McConville. Well, the programs that we are looking 
at right now is, you know, we do have some--as we did the 
analysis and we did simulation at--really, at Fort Leavenworth, 
we came back and did it--we did a comprehensive study on how we 
are going to fight in the future. And there are gaps as far as 
in bridges and engineering equipment, and we know what they 
are, and we have got to get them into the budget and the 
program based within the--with the resources that we have.
    Mrs. Hartzler. I would like to visit with you later more 
about some of the specifics. Obviously, at Fort Leonard Wood, 
we have the engineering school and----
    General McConville. Sure.
    Mrs. Hartzler [continuing]. Very, very important. I would 
like to switch to talking about the helicopters, UH-60M. This 
year requested 36; last year it was 74. So that is 
significantly less than we requested last year. Of these 36 
requested this year, 13 are for Active Duty, 23 are for Army 
National Guard, which I actually have a Guard unit at Whiteman 
Air Force Base that flies these.
    So what is the number requested--why is the number 
requested significantly lower than the number last year? And 
how will this impact units that are in the pipeline to receive 
the UX-60, the Mike models?
    The Chairman. And that we will have to take for the record, 
unfortunately. The gentlelady's time has expired, so they can 
get back to you later. I can tell he was looking forward to 
giving you the answer on that one, too.
    [The information referred to can be found in the Appendix 
on page 78.]
    The Chairman. Ms. Horn.
    Ms. Horn. Thank you very much, Secretary McCarthy and 
General McConville, for being here. I am going to pick up one 
of the issues that Congresswoman Houlahan addressed--as I am 
sure neither of you are surprised--that housing is a major 
issue for me and across our Nation. And I want to talk about 
that, because I am incredibly concerned still about the 
challenges that we are facing with privatized military housing, 
despite the fact that last week the Secretary--Defense 
Secretary Esper, they signed an agreement about implementing 
the tenant bill of rights. Three of the major provisions were 
not implemented. We will continue to follow up on that.
    And the progress has been insufficient, to say the least. 
But while the overall request in the fiscal year 2021 budget 
was a substantial increase across our service branches, the 
fiscal year 2021 budget request for housing in the Army was 
actually decreased by 11 percent, and supporting and addressing 
the privatized housing and fixing the systemic and significant 
problems there was a 22 percent decrease.
    So, Secretary, I am confused as to why facing these 
significant challenges--and, again, increase in the need for 
force structure--how we are going to address the ongoing 
challenges realistically and take care of our service members 
and their families with a 22 percent decrease.
    Secretary McCarthy. Yes, ma'am. With respect to the bill of 
rights that you mentioned, three of the tenets weren't agreed 
to at this point because there is much work to do. And to your 
point, we are trying to earn back the trust of our families, so 
that is why 15 of the 18 will be implemented by May 1.
    There may be some authorities we might need from the 
committees of jurisdiction in order to get a dispute resolution 
process in place to work on those maintenance history records.
    With respect to the management, it has gotten better, but 
we have a long way to go, to your point.
    Ms. Horn. Specifically, I want to know about why there was 
a decrease in the requested funding.
    Secretary McCarthy. So on the profile, so much of it is 
about execution as it is on the investment decision of which 
homes do we recapitalize or ultimately knock down.
    Ms. Horn. Okay. And I will follow up about the authorities 
needed, because the three that were not implemented cause me 
great concern. We have a lot of bipartisan support on 
addressing this issue. The ability to access maintenance 
history seems pretty basic to me, as well as some of the others 
that were at the heart of the tenant bill of rights we passed. 
So we need to make sure that we are getting the authorities 
that are needed and holding these companies accountable.
    But I want to go ahead and switch gears now so we can cover 
a couple of other things, and I will ask both of you this next 
question.
    So, as you know, Fort Sill in Oklahoma, Fort Sill Base is a 
critically important installation to the Army and to Oklahoma. 
And the Fires Center of Excellence there is doing an amazing 
job of training the next generation of artillery soldiers to 
face near-peer adversaries.
    And looking at the investment of some of our near-peer 
adversaries, specifically China and its investment in long-
range precision-strike capabilities, I would like--Secretary 
McCarthy, I will start with you--to talk about I am hearing 
concerns from them and other places about our ability to keep 
up in our investment.
    So strategic priorities and timetables to modernize and 
update the long-range precision fires program.
    Secretary McCarthy. Yes, ma'am. We have over $10 billion 
invested across the FYDP in long-range precision fires. 
Extended Range Cannon Artillery, we are on track to having the 
four batteries by fiscal year 2023 fielded. We will have--on 
the Precision Strike Missile, we are going to have batteries 
fielded by end of fiscal year 2022. The hypersonics, we will 
have a strategic capability fielded, deployable capability by 
first quarter 2023. So we have billions of dollars invested 
against this and a tremendous amount of energy from senior 
leadership.
    Ms. Horn. General McConville.
    General McConville. Yes, Congresswoman. I would say for 
both fires and air defense we are ramping them up because of, 
really, the change in the fight we see. You know, when you are 
in irregular warfare counterterrorism, we weren't, you know, 
shooting large amounts of artillery. We certainly weren't 
shooting a long ways because of potential collateral damage.
    But the way you deter near-peer competitors is with things 
like artillery and tanks, and so we are very aggressively 
investing in that. And what our potential competitors have is 
they have set up an anti-access, area denial capability that is 
going to be required to be penetrated. And that is why we need 
these long-range precision fires.
    And like I said in my statement earlier, we don't want to 
be outgunned or outranged in the future. So that is why we are 
investing in artillery.
    Ms. Horn. Thank you very much. And I will be following up 
about the housing issues as well. Thank you.
    The Chairman. Thank you.
    Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here. I am one of those that 
is concerned about the term ``near peer'' being used as not 
necessarily an excuse, but a reason to get rid of systems that 
are effective and efficient that we use in combat today before 
a replacement system has proven themselves to be both effective 
and efficient.
    And, General, I think you used the term that you like to 
drive it or fly it before we buy it. And sometimes the thing 
that will work and is proven that it will work is the thing we 
ought to stick with, especially until something has proven that 
it can be--they can do it better.
    The Air Force has proposed to stand down a significant 
number of A-10s. I am concerned about the close air support 
mission. I am also concerned about the command and control 
aspect of combat for the Army.
    And, specifically, I want to talk about ABMS [Advanced 
Battle Management System] right now. It is an Air Force system. 
It is--JSTARS [Joint Surveillance Target Attack Radar System] 
is your targeting system that the Army has depended on that is 
operated from--by the Air Force. It operates out of Robins Air 
Force Base. The Air Force made a decision that I very much 
disagree with not to go forward with the recapitalization of 
the new JSTARS in favor of ABMS.
    General Wesley from the Futures and Concepts Center stated 
that the ABMS system cannot be the sole solution for the Army's 
multi-domain operation command and control. I was a little 
taken aback with these comments. I would assume that if it was 
going to be the command and control platform for the Army that 
the Army would have been involved from the start with the 
development of the ABMS system. That is apparently not the 
case.
    But what is the Army doing with regard to the warfighter 
multi-domain operational command and control requirements with 
regard to the Air Force and ABMS moving forward? And have you 
integrated people from Army Futures and Concepts Center with 
the Air Force to develop the ABMS platform and make sure that 
it works for the Army?
    General McConville. Yes, Congressman. What we are doing is 
the overarching concept--we have what we call multi-domain 
operations, but at the joint level there is going to be a joint 
all-domain operations. That is a joint warfighting concept that 
is being put together by joint force.
    The joint all-domain command and control is the network 
that will allow us to talk to all of the services and links 
sensors to shooters. The Air Force has the lead on that. Their 
contribution is--as you said, it is the air battle management 
system. They are taking a look at that.
    Our contribution to JADC-2 [Joint All-Domain Command and 
Control] is an integrated battle command system that ties all 
sensors to shooters. It is an integrated tactical network. It 
is a cloud, and it is data standardization. And what we are 
trying to do is bring these systems together, so that every 
sensor, every shooter from every service in the battlefield can 
communicate as we move in the future.
    Mr. Scott. General, it is one of those things it is much 
easier said than done, if I am not----
    General McConville. No, you are absolutely correct. This is 
hard stuff. I mean, it briefs a lot better on PowerPoint.
    Mr. Scott. Many of your aircraft, in fact, probably all of 
our aircraft, still operate on VHF [very high frequency]. Is 
that----
    General McConville. Well, not all, but we have VFH, UHF 
[ultra high frequency], Fox Mike [FM], and satellite 
communications. So most of them have multiple communications 
capabilities, so they can talk if something happens.
    Mr. Scott. Point being that a soldier mic'ing up and 
talking to another soldier----
    General McConville. Sure.
    Mr. Scott [continuing]. Is probably the same system we are 
going to use many, many years from now, I would think.
    I am down to a minute, but, Mr. Secretary, the coordination 
among the branches and the leadership of the branches is a very 
serious concern of mine. And I know over the--you know, the 
duration of our Secretaries is, on average, 24 months or so. 
And so I am glad you are there. I wish you good luck, 
especially in the Army-Navy game. But I hope that you will stay 
on the Secretary of the Air Force about making sure that as 
they stand down systems that the soldier on the ground in the 
Army depends on, that they have another system that is ready to 
go before they stand down the system that--systems that are 
efficient and effective and that our soldiers depend on on a 
daily basis.
    Secretary McCarthy. We had this very discussion last week, 
sir, on the Defense Planning Guidance, where we had senior 
leaders from all of the services meet with the SECDEF 
[Secretary of Defense] and talk about how the technical 
architecture for this has to be complementary, so that all of 
the services can then deploy their capability and fight 
jointly.
    Yes, sir.
    Mr. Scott. Well, if you take him to Benning, I am going to 
tag along with you.
    Secretary McCarthy. It is a short ride for you, sir, I 
know.
    The Chairman. Thank you.
    Mr. Brown.
    Mr. Brown. Thank you, Mr. Chairman, and thank you, 
gentlemen.
    I was recently informed that two Army medical research 
labs--the U.S. Army Medical Research Institute of Infectious 
Diseases at Fort Detrick and the United States Army Medical 
Research Institute of Chemical Defense at Aberdeen Proving 
Ground--are currently going through funding issues, including a 
hold on reimbursements in the Office of the Secretary of 
Defense.
    These labs provide critical support, developing 
countermeasures and treatments to both chemical weapons and 
infectious disease, including the coronavirus. They played an 
instrumental role in the vaccine for anthrax, smallpox, and 
Ebola.
    The coronavirus is having an impact on readiness. General 
McConville, you mentioned canceled joint exercises in South 
Korea. We also know that there is restricted access to public 
areas for service members in Italy. There is the offshore 
quarantine, basically, of all ships that have made port in the 
Pacific.
    CENTCOM [U.S. Central Command] has ordered all military 
personnel in Saudi Arabia to stop non-essential travel. We have 
canceled joint military exercises in Israel, and at least one 
service member and their spouse in South Korea has been tested 
positive for coronavirus. It is having an impact on readiness.
    General Milley says that the DOD is working feverishly on a 
coronavirus vaccine, but I have got concerns. And, Secretary 
McCarthy, you mentioned we have got a crackerjack scientist who 
is on the case. One person cannot do the job. The lab at Fort 
Detrick has some serious funding issues. It is a lab that 
operates on a reimbursement model. So when customer demand is 
down, they don't have the revenues to invest in human capital, 
the scientists that they need, or in modernizing their 
equipment. I don't think it is a sustainable model.
    So the question for the panel: how do we ensure that these 
critical labs both have stable funding to maintain capability 
and that they can surge to meet crises like coronavirus?
    Secretary McCarthy. Yes, sir. I highlighted earlier the 
extraordinary technical talent that exists, to your point, and 
that those were just the leaders of those efforts. There are 
some amazing individuals that work alongside them.
    What has gone on over the last year was that the Army 
senior leadership recognized that the overhead rates for the 
labs were growing double-digit costs year over year. So what I 
am referring to there is the overhead administrative management 
and base operations, and it started trending in the 60s, and 
then it was north of 74 percent last year.
    So we recognize we need stronger leadership to go in there 
to reduce the overhead cost, so you could put more dollars into 
the hands of the researchers. It was a management issue.
    To your point, it was also a business model challenge. So 
from that standpoint, what General Murray is doing is looking 
at what they call a rate board, so you can stabilize the rates 
so when CDC or NIH or other government entities turn and say, 
``We need this world-class talent, here is the cost,'' it is a 
similar challenge that we face with our industrial base with 
the revenue that has to go into the depots.
    And you want it to be consistent but still have surge 
capacity when you have extraordinary instances like the 
coronavirus. A lot of work--a lot of really good work has been 
done, but we still have a little work to go to get to the end 
of this fiscal year.
    Mr. Brown. And one of the things that I would suggest--and 
I did speak with General Murray and they do have a lot of work 
to do to improve the efficiency of that lab--is to seriously 
consider a core budget in addition to the reimbursable model.
    You know, reimbursable models work well, but when demand is 
down, you have difficulty maintaining scientists and keeping 
equipment at the modern levels that they need. So I would hope 
that we are looking at a core budget.
    If I could just quickly shift to Africa. I am pleased that 
we are sending a security force assistance brigade there. There 
is a tyranny of distance. There is also less sort of fortified 
bases in which to operate, unlike in Afghanistan. And this was 
all pointed out by Brigadier General Jackson. He is excited to 
go, but there are some challenges. Could you please reassure 
this committee that they will have the infrastructure, the 
logistics, the things that they need to do to get the job done.
    Secretary McCarthy. Yes, sir.
    General McConville. We will make sure they have what they 
need to get the job done, Congressman.
    Mr. Brown. I yield back.
    The Chairman. Thank you.
    Ms. Cheney.
    Ms. Cheney. Thank you very much, Mr. Chairman.
    And, Mr. Secretary and General McConville, thank you for 
your service. Thank you very much for being here. I want to ask 
about Afghanistan. All of us I think--I know--on both sides of 
the aisle understand the need to make sure that we on the Hill 
are operating in ways that are worthy of the sacrifice of our 
men and women who put on the uniform.
    We have a number of serious concerns about the Afghanistan 
agreement as it was released, including the extent to which we 
are making a number of concessions, the release, committing to 
the release by the Afghan government of thousands of Taliban 
fighters, committing to help to work to lift sanctions on 
terrorists, committing to withdraw our forces.
    And I was pleased to hear over the weekend Secretary Pompeo 
make a number of assertions that would have given me comfort, a 
number of assertions about what we would find when we saw the 
full agreement and the full documents as they came to the Hill. 
He made assertions including that there were complex 
interlocking verification mechanisms. He asserted that there 
would be a full and complete renunciation of al-Qaida by the 
Taliban.
    I have read the documents and my concerns remain. I am not 
going to talk about what is in the documents. A number of them 
are classified, as you know, but the documents that have been 
sent to the Hill do not include those things.
    So my question, first of all, to you, Secretary McCarthy, 
is, are there documents that have not been sent to the Hill?
    Secretary McCarthy. I am not aware because I am not 
directly involved with that, ma'am.
    The Chairman. I am sorry. I think I can help with that, 
because we have asked about that. My understanding is--and my 
staff can correct me on this--is just today all of the 
documents have been sent and will be available in some SCIF 
[Sensitive Compartmented Information Facility] today. That is 
my understanding.
    Ms. Cheney. And I have read those. I read them before the 
hearing, Mr. Chairman. Thank you. You are right. There were a 
number of documents that were made available that I went to 
read in the SCIF before coming here this morning, and those 
documents do not include in them the things that Secretary 
Pompeo said they would.
    So my concerns still remain. The decisions about U.S. troop 
levels on the ground in Afghanistan, we have been assured, the 
American people have been assured, would always be based upon 
the national security interest, the counterterrorism threat 
that we face.
    And when we are in a situation, as we seem to be now, where 
we have no verification agreement and we have a number of 
Secret documents, I would like to ask a couple of things. 
Number one--and I understand Secretary Pompeo said those 
documents could not be released to the American people because 
they would affect troop security.
    The documents have been seen by the Taliban. So I believe 
that the American people deserve to know what agreement has 
been entered into in our name with the terrorists who harbored 
those who killed 3,000 Americans on 9/11. And I would like the 
assurances--both of your assurances that the documents, if 
either--that all of the documents have been delivered, in which 
case there is not a verification agreement, in which case we do 
not have the kind of full, complete renunciation of al-Qaida 
that Secretary Pompeo says we do.
    So I would like your assurance that you will come back to 
the committee and let us know, is it the case that the 
documents have all been delivered, in which case those things 
do not exist, or are there additional documents that need to be 
delivered to the Hill?
    Secretary McCarthy. Ma'am, we will definitely address your 
concerns with Secretary Esper.
    [The information referred to can be found in the Appendix 
on page 80.]
    Ms. Cheney. Thank you. I appreciate that.
    And then, finally, I would just ask for your commitment--
both of you--that the decisions about U.S. troop levels on the 
ground in Afghanistan will be made based on what is necessary 
for our security. Either we need forces on the ground to 
conduct counterterrorism and intelligence operations or we 
don't.
    And if we don't, then we ought to bring everybody home 
right now, and we ought not deploy a single additional U.S. 
service member. But if we do, then we have a moral obligation 
not to pretend the Taliban can take care of that security 
concern, that security threat, for us.
    And I think that what we have seen with this agreement now 
concerns me as much as the Iranian nuclear deal did, now that I 
have seen the documents and now that there seems to be still no 
verification mechanism by which we are going to enforce any of 
the so-called Taliban promises.
    So I would appreciate any response that you all have to 
that. Again, I appreciate your service. I think it is very 
important that the American people know what has been agreed to 
on our behalf.
    Secretary McCarthy. Yes, ma'am. With conditions, base 
withdrawal was necessary. Yeah.
    The Chairman. Thank you.
    Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman.
    Mr. Secretary, General, thank you for being here. A lot has 
been covered that I was going to address. So I want to just 
sort of drill down to a couple of things I am more personally 
involved in.
    Number one, one of my other assignments here is chair of 
the Subcommittee on Europe and Eurasia on the Foreign Affairs 
Committee. And I want to underscore--and I know, General, you 
mentioned this in your opening remarks--the importance and how 
well-received exercise Defender Europe 20 has been. That is--
and to the government leaders of our European allies, I can't 
tell you how important and how grateful they are for our 
involvement in that.
    I wanted to get a sense--I know Germany and U.K. are very 
much involved and participating in this. But if you could, 
General, some of the other neighboring countries in the region, 
what their involvement might be and what you foresee, which is 
really the most important part of my question----
    General McConville. Yeah, Congressman. I had a chance to--
--
    Mr. Keating [continuing]. In the future.
    General McConville [continuing]. Go over--Europe was one of 
my first trips as chief of staff. And we do a conference for 
all of the chiefs of staff of the army at the time, and there 
was 37 countries there. And I personally met with 34 of those 
chiefs, and I can tell you that our commitment, our 
relationships, the ability to work with their militaries is 
extremely, extremely important.
    They want U.S. leadership. They want us to participate. 
And, again, this exercise, you know, is one of those important 
ways of showing our commitment, that we can come there if they 
need us and it reassures our allies and partners in the region.
    Mr. Keating. Do you see any--what do you see foreseeable in 
the future about other regional--participating even more?
    General McConville. Well, I think--again, I talked to 34 
out of 37, and not all are NATO [North Atlantic Treaty 
Organization] members but all want to partner. They all want to 
participate. There is other exercises going on that are not 
necessarily NATO exercises during the same timeframe. But I 
think they all share the same goals and really the same values. 
That is why I am not surprised. They want to be with us.
    Mr. Keating. It is so well received. I just wanted to 
communicate, which you already knew, but it is good to 
underscore it from the political side and the people you talk 
to, you know, in the Parliaments there.
    Also, looking at another aspect, Open Skies Treaty is on a 
pause, but for the same kind of reasons. When I talk to General 
Walters and other people, keeping that cooperation is an 
important part of that. So do you have any--can you reflect on, 
you know, the importance? I know the Russians have violated it. 
I understand that. But I still think it has an importance for 
the same type of reasons, keeping our allies together.
    General McConville. Well, I will defer to General Walters. 
He is a friend. He is a very wise person on that issue. And 
then the Secretary--but, you know, my experience--I said this 
in my opening statement--is great power competition does not 
have to mean great power conflict. In a way, really, you avoid 
conflict just through strength. And when we are united with all 
of our partners, and we are standing strong and everyone is 
standing side by side, no one is going to want to take us on.
    And as far as these agreements, I think it is important 
that we have discussions with even those that we may not be 
getting along with the greatest. So there is room, you know, 
especially, if nothing else, military to military. We need to--
--
    Mr. Keating. I recall a rather--at times meeting together, 
and we need to thank you personally for that.
    General McConville. We may not agree on everything, but we 
should--we should communicate with those, and I know that 
General Milley routinely does that even during these very tough 
issues, and even during some of these other situations going 
on. We are all communicating with our fellow chiefs.
    Mr. Keating. Quickly, the second thing that is kind of 
close to home--and close to your home, too, of Quincy--you 
know, a little south of that, about 50 miles, is Joint Base 
Cape Cod and Camp Edwards and the trainings there. Just a 
couple of points. You know, in talking to the folks there, they 
are concerned, too, about how you balance out maybe some of the 
environmental issues and the training, are there noise or land 
environmental issues, and how that affects training.
    I am running out of time, so I will mention two that--the 
importance, too, of one of Army's most critical enablers in 
logistics, transportation, sustainment, is the Army National 
Guard, U.S. Army Reserve. In the training, the reports show 
them a little behind, but I see firsthand how that is 
improving. So if you can sort of address those two issues in 30 
seconds.
    General McConville. I know a little about the Massachusetts 
State Guard. In fact, hired Rich Johnson out of the--we brought 
him down here and made him a two-star. But I think it is very, 
very important, especially in places like Massachusetts where 
you don't have a whole lot of military anymore, that the people 
get to see them.
    When we look about where we recruit, a lot of it is 
exposure and it is very, very important that the American 
people throughout the entire country have that exposure, and 
sometimes there are challenges with noise and some of those 
other types of things that go along with military training.
    But that is sometimes the cost of freedom, so to speak, is 
we want to be--our soldiers have to train. They have to be 
ready, because I don't think anyone would want to send our 
National Guard soldiers off to conflict without being fully 
trained, because they are--you know, there are some noise 
issues. So that----
    Mr. Keating. Thank you. My time is up. And thank you again.
    I yield back.
    The Chairman. Thank you.
    Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman. And thank both of you 
for your service to our country and for being here today.
    Secretary McCarthy, in the fiscal year 2021 budget 
documents, the Army has requested $1.4 billion for depot 
maintenance accounts, and my understanding is that will only 
support 64 percent of the identified requirements. Given the 
priority that the military leadership has put on readiness, how 
is funding only 64 percent of requirements going to meet that 
support near-term readiness and sustainment of the Army's 
organic industrial base?
    Secretary McCarthy. Yes, sir. It is about a 17\1/2\ percent 
increase year over year from fiscal year 2020. What we are 
looking for is, how do we meet our near-term readiness goals 
but still have--not overcapacitizing of the depots but have the 
room to grow in the event of a large-scale ground combat 
operation. So we have seen challenges with other depots where 
we flushed too much revenue, hired too many people, and then 
when the revenues changed based off of operations, you are 
overcapacitized. You have people that don't have work.
    So striking the balance at 64 percent helps us run smooth 
operations, grow the workforce, but still have the capacity or 
room to grow.
    Mr. Rogers. A perennial problem that we have had in the 
depot system has been carryover issues. I asked General Perna a 
couple of years ago to get me some language that he felt would 
remedy that, and he did last year, and we put it in the NDAA. 
Can you tell me, or are you aware, as to whether or not that 
has resolved that problem?
    Secretary McCarthy. It has greatly enhanced his abilities. 
He is very encouraged by that, that we have shown some 
improvement.
    Mr. Rogers. I have been asking for AMC to give me--to 
report to me on how it has worked. Could you assure me that you 
would have AMC reach out to my office and give me some 
information as to how that language has worked? Because if we 
need to do a little more, you know, we have got another NDAA 
coming this year.
    Secretary McCarthy. We will see him later this afternoon. 
We will definitely bring it up. Yes, sir.
    [The information referred to can be found in the Appendix 
on page 78.]
    Mr. Rogers. I appreciate that.
    And, General McConville, are the Army's training ranges 
currently capable of providing training to meet the Army's 
emphasis on multi-domain operations?
    General McConville. They are, Congressman, but there are 
some things that are going to--you know, as we get to longer 
range artillery, and we start to look at some of the systems, 
and we get to being contested in some of the systems that we 
are going to see, we are going to have to take a look at our 
ranges and make sure that they can accommodate that.
    Mr. Rogers. If there is anything that this committee can do 
to be helpful, be sure and let me know and we will try to make 
it----
    General McConville. And we will come back to you. But we 
are looking at that. We know there is going to be some changes. 
We have just got to make sure we know where they are going to 
be and what we need to do.
    [The information referred to can be found in the Appendix 
on page 78.]
    Mr. Rogers. Excellent.
    Thank you, Mr. Chairman. I yield back.
    Ms. Speier [presiding]. I recognize myself for 5 minutes. 
Thank you both for being here.
    Let me say to both of you, as subcommittee chair of 
Military Personnel Committee, I have been to 12 bases. Every 
base I have gone to I have asked to meet with the families. 
Every meeting I have had has complained about the condition of 
the housing units.
    We spent a good part of the NDAA creating this new housing 
management office within each installation. So what I would 
like for you to do--maybe this is to you, General--is to report 
back to the committee on have they all been identified; and, if 
not, why not? And to the extent that they have been identified, 
how many complaints have been filed and what has been the 
review of those complaints and what has taken place?
    I now want to move to another issue dealing with white 
supremacy. General, a Military Times survey in 2019 found that 
36 percent of responding troops had seen evidence of white 
supremacists and racist ideologies in the military. This comes 
as violent white supremacist incidents increase across our 
country. It is indeed alarming to read that statistic. I want 
to know what you are doing to make sure that we identify those 
who associate themselves with white supremacists and what we 
are doing to process them out of the military.
    General McConville. Well, Congresswoman, first of all, 
there is no place for extremism in our military of any type, 
and we have a CID [Criminal Investigation Command] task force 
so to speak that takes a look at those type of extreme type of 
cases, and they are working very, very closely with the FBI 
[Federal Bureau of Investigation] to make sure that we can 
identify those who may be involved in those type of incidents. 
And then we are taking the appropriate legal actions to make 
sure that that does not occur.
    Ms. Speier. Okay. General, would you report back to the 
committee about the number of incidents within the Army and 
what steps have been taken?
    General McConville. Sure.
    [The information referred to can be found in the Appendix 
on page 79.]
    Ms. Speier. Secretary McCarthy, last June an Army Appeals 
Court panel overturned the conviction of a West Point cadet 
named Jacob Whisenhunt. A jury of officers had heard his trial, 
found him guilty of three counts of sexual assault, and 
convicted him to 21 years of confinement, yet three judges who 
were not present for the trial reviewed the case and decided 
for themselves that Whisenhunt wasn't guilty, setting him free.
    They undid months of preparation, days of trial, and 
justice for a survivor in a mere three-and-a-half-page opinion. 
The panel concluded that though Whisenhunt and his victim had 
sex, it had to be consensual because, quote, ``In the unique 
circumstances here, which included a noise-producing space 
blanket and numerous squadmates in very close proximity, it is 
hard to conclude beyond a reasonable doubt that appellant could 
complete the charged offenses without cooperation or 
detection.''
    No U.S. jurisdiction besides the military gives appeals 
courts the power to overturn cases based on their rereading of 
the facts. When this power leads to embarrassing miscarriages 
of justice, why does the military system need to keep factual 
sufficiency in place on the appellate level?
    Secretary McCarthy. Congresswoman, I would have to defer to 
the legal counsel. I mean, this is outside of my particular 
expertise, but I would definitely want to look at this and come 
back to the committee.
    Ms. Speier. All right. This whole issue of factual 
sufficiency existed before we had a military that had 
professional judges and free and qualified representation 
through the appellate level. So it is really antiquated. It 
does miscarriages of justice, in my opinion, so I would 
appreciate that.
    [The information referred to can be found in the Appendix 
on page 79.]
    Ms. Speier. Secretary McCarthy, contraception is critical 
for military readiness and for treatment of health conditions 
like endometriosis. According to the DOD, 95 percent of all 
women serving are of child-bearing age. Under TRICARE, there is 
no cost-sharing for Active Duty, but there is cost-sharing for 
non-Active Duty service members and family dependents to pay 
co-pays for birth control.
    Now, some birth control can run as much as $1,000 for an 
IUD [intrauterine device]. Under the Affordable Care Act, 
everyone has access to all forms of contraception without cost. 
So why is it we are imposing a cost-sharing on those service 
members and families? Shouldn't they deserve the same level of 
coverage as every other child-bearing-age woman in this 
country?
    Secretary McCarthy. Congresswoman, that obviously seems 
reasonable. I will get with staff and get back to you on that 
as well.
    Ms. Speier. Thank you. I yield back.
    [The information referred to can be found in the Appendix 
on page 79.]
    The Chairman. Thank you.
    Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    I would like to thank Secretary McCarthy and General 
McConville for prioritizing personnel and your efforts there, 
as well as readiness and modernization.
    General McConville, I want to go to you. I have a series of 
six questions. Most of them are pretty short, straightforward, 
and I want to end with one that requires a little more 
elaboration. If conflict broke out today in the Indo-Pacific 
Region, would it be necessary for the Army to get there?
    General McConville. Yes, Congressman.
    Mr. Wittman. All right. Great. If conflict were to break 
out today in the Indo-Pacific, could the Army get there?
    General McConville. Yes, I believe so.
    Mr. Wittman. Okay. So you could get everything that is 
necessary to get there now as we speak.
    General McConville. We believe so.
    Mr. Wittman. Okay.
    General McConville. I always like to say the proof is in 
the execution. That is why we are doing exercises like Defender 
20, though. I want to see it--I want to be able to move it and 
come back to you and say those ships that were so ready to go, 
those planes that were ready to go, they actually are and they 
work.
    Mr. Wittman. Based on your knowledge of all of the OPLANs 
[operations plans], do you think it should be a top priority of 
the Army to be able to get to the Indo-Pacific in case of a 
conflict? Question 1.
    And the second one is either an affirmation or a question 
to me is, based upon all that you are doing to raise the 
readiness of the units, you can have the best brigade combat 
teams in the world, the best Stryker brigades, but if we have 
got something that happens outside of CONUS [contiguous United 
States], it can be great, but we have got to get them there.
    So would you agree with that assertion that the key really 
is not just the training but being able to get them there and 
looking at the importance?
    General McConville. I agree with that, Congressman. I 
think, you know, as you read the National Defense Strategy, 
dynamic force employment is one of the key tenets of the 
ability, and that is why the Secretary and I have made 
strategic readiness, the ability get there, as one of our key 
priorities.
    Mr. Wittman. Do you think that surge sealift 
recapitalization is something that transcends service branches, 
so it is not parochial in how we should look at it as a force?
    General McConville. Well, I think the Department of Defense 
should look at how we--you know, we are going to get top line, 
we are going to figure out who does what within the top line, 
and whoever gets that task to do it should be resourced 
appropriately to make that happen.
    Mr. Wittman. As you look at those elements that are of high 
strategic importance to the United States, we look at B-21, 
ground-based strategic deterrence, the Columbia-class 
submarine, I would argue as part of that surge sealift is 
another element of strategic importance that transcends service 
branches.
    Is it fair to say that as we look at the different service 
branches--Air Force funding B-21 with Navy funding Columbia 
against strategic assets--that we should look less parochially 
at surge sealift, or do you think that it should be something 
that falls under the Army's wherewithal on funding, because 
about 90 percent of what the Army needs to get to the fight is 
going to be done by surge sealift?
    General McConville. Yeah. I think when it comes to 
resources, about who pays for it, you have got to take a look 
at the prioritization. As the Secretary said, we are pretty 
much flatlined in the Army. We are basically going to zero 
growth to keep that, and we are very highly deployed, and we 
need to modernize the Army for the future.
    So a decision would have to take that into consideration of 
who would actually fund that without an increase in top line.
    Mr. Wittman. Sure. If you look historically about how many 
of these missions have been funded in the past, we have a 
national fund that goes in, a national strategic deterrence 
fund, where money has gone in to be able to do things that are 
of issue across service branches. And whether it is aircraft or 
whether it is ships, we have done those things. So, in looking 
at things historically, and that we do have a National Sea-
Based Deterrence Fund that could include surge sealift, would 
you think it a wise investigation to look at using that 
particular fund to put the dollars in necessary for surge 
sealift?
    General McConville. Well, what I would do is I think, at 
least for the Army, we need sealift to get our forces to the 
fight. And I would defer to those that are making the budget 
decisions about the best place to put those funds.
    Mr. Wittman. But you would be straightforward in saying 
that where we are today, and what the Army would face in the 
future, that there is a delta there that we have to bridge as 
far as modernization and capacity within sealift?
    General McConville. Well, I think so. I know there has been 
studies done. I think there is--they said we require 9.2 
million square feet of capability to go ahead and move our 
forces. You know, the word is it is good today. But as we look 
in the future, we are going to have to invest.
    And there is three different ways of doing that--extending 
the life of the ships we have, buying used ships or actually 
building new ships, and there is probably some combination of 
both. But I think we need to really take a hard look at that, 
how we deal with that in the future.
    Mr. Wittman. Just to put it in context, the requirement is 
to meet 85 percent of the need. And the most recent turbo 
activation took place September 17, only met about 40 percent 
of the demand. So while the Army may have the desire to get 
there, the desire versus the capability, the delta I think is 
pretty significant.
    So anyway, with that, Mr. Chairman, I yield back.
    The Chairman. Thank you. And I believe that concludes our 
hearing. I want to thank you gentlemen for your service and for 
your testimony. I look forward to working with you as we get 
our bill done this year, and get the appropriations bills done 
as well.
    Thank you for a very informative hearing, and we are 
adjourned.
    [Whereupon, at 12:51 p.m., the committee was adjourned.]


      
=======================================================================


                            A P P E N D I X

                             March 3, 2020

=======================================================================

      

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 3, 2020

=======================================================================

      
      
             [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 3, 2020

=======================================================================

      

             RESPONSES TO QUESTIONS SUBMITTED BY MR. WALTZ

    Secretary McCarthy. Army National Guard (ARNG) continues to posture 
itself to protect its mission readiness and best support current and 
future requirements.
    Recognizing the ARNG's critical enabling role with the States, 
there are ongoing planning sessions to provide information regarding 
potential support to civilian authorities based on future impacts of 
the Declared National Emergency. The planning sessions are to 
anticipate and support ARNG personnel mobilizations supporting State 
missions under the direction of State Governors and Adjutants General. 
ARNG is prepared to provide quarantine facilities to affected civilian 
personnel (approximately 12,000 bed spaces). ARNG is providing 
commodity distribution, drive-thru testing sites, and other services to 
various State agencies (e.g., GA ARNG is using Clay NGC to house 
quarantined civilians).
    While the ARNG is preparing to support, it must also protect its 
readiness. Therefore, it is taking actions to hold units from 
conducting exercises in countries with a Travel Health Notice 3 (avoid 
all non-essential travel); quarantining Soldiers returning from OCONUS 
missions for 14 days before returning to their homes; putting Permanent 
Change of Station (PSC) moves on hold through May 11, 2020; and 
rescheduling training at Combat Training Centers.   [See page 13.]
    Secretary McCarthy. I agree that service to the nation is something 
we should all strive towards. I know this is also something that The 
National Commission on Military, National, and Public Service (the 
Commission) was reviewing as well; and I am looking forward to 
reviewing its report and the recommendations.   [See page 13.]
    Secretary McCarthy. With more than 2,000 pieces of space-reliant 
equipment in each brigade combat team, it is critical for the Army to 
continue to identify and advocate for the warfighter focused 
requirements, capability development, and modernization of space-
reliant equipment. Army space focused forces and capabilities will 
become even more important as we move toward the full implementation of 
the Multi-Domain Operations concept. The Army's increasing integration 
of space capabilities and applications to compete and win the land 
fight requires that the Army continue to design and develop space 
concepts and capabilities for integration into Army formations. The 
Army must continue to evolve service-unique capabilities required to 
enable space abilities that will achieve overmatch against our 
adversaries to meet Army Warfighter readiness and lethality 
requirements, now and in the future.   [See page 14.]
    Secretary McCarthy. The Army National Guard (ARNG) has proven 
itself effective in recruiting top talent into high demand occupations 
such as Cyber, Aviation, and skilled trades--these are also referred to 
as low density Military Occupational Specialties (MOS). The ARNG has 
developed innovative marketing strategies, and recruiting campaign 
plans to fill Cyber and other high demand fields.
    The Army intends to expand the Talent Management initiatives via 
the Integrated Personnel Pay System-Army (IPPS-A) to capture National 
Guard and Reserve personnel knowledge, skills, and behaviors. These 
talents, identified in Reserve and National Guard component Soldiers 
could then be utilized in those Soldiers' military and/or DOD civilian 
employments, if applicable.
    We envision IPPS-A as a valuable tool through which service members 
will inform the DOD of their employment and skill sets utilized outside 
of duty. Leveraging IPPS-A data can be a viable resource for specialty 
recruiters who are targeting Soldiers to fill critical vacancies and 
shortages within low-density MOS' and branches such as Cyber.   [See 
page 14.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MS. SHERRILL
    General McConville. Army Futures Command has established the 
University Technology Development Division, which serves as the primary 
link from the headquarters into academic partnership efforts and 
demonstrates the Army's commitment to partnering with academia to find 
solutions to modernization challenges. We now have approximately 300 
academic partnerships with universities across the nation to support 
our modernization efforts into the future. The establishment of the AI 
Task Force at Carnegie Mellon University in Pittsburgh, PA is an 
example of the types of academic partnerships we've established. 
Additionally, Army Futures Command created the Army Applications 
Laboratory in 2019 to help the Army evolve by connecting ideas from a 
broad range of nontraditional solvers--startups, entrepreneurs, tech 
companies, investors--to the right people and organizations within the 
Army to close capability gaps and field novel solutions.   [See page 
19.]
                                 ______
                                 
           RESPONSE TO QUESTION SUBMITTED BY MS. TORRES SMALL
    General McConville. I believe you are referring to the Information 
Systems Facility Military Construction Project at White Sands Missile 
Range (WSMR), which is a project on the 10 USD 2808 deferred list. 
There are no current impacts to any specific Army Modernization 
programs due to the delay. Risks for maintaining the aging equipment 
underlying the voice and data networks at WSMR will trend higher if we 
do not soon replace the aging facility. Delays in construction increase 
sustainment costs and operational mission risk for WSMR and its 
installation-critical services. If Congress approves the FY21 UFR 
requested for this important IT infrastructure project, the Army is 
ready to begin work.   [See page 23.]
                                 ______
                                 
              RESPONSE TO QUESTIONS SUBMITTED BY MR. KELLY
    Secretary McCarthy and General McConville. I agree with the 
Chairman of the Joint Chiefs of Staff's assessment that the 
reprogrammed funding would not have a significant, immediate, strategic 
negative impact to the overall defense of the United States of America.
    As the Army fields modernized equipment, the priority will be to 
those forces expected to make contact with an adversary first--
regardless of component. Nevertheless, there are plans to continue to 
provide the Army National Guard with modernized equipment. Examples 
include the AH-64E to replace older model Apaches, UH-60M Black Hawk 
helicopters to replace UH-60A models, the Next Gen Squad Weapon to 
replace some M4 rifles, and IVAS to replace current night vision 
devices.   [See page 32.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MR. CISNEROS
    Secretary McCarthy and General McConville. We are improving the 
diversity in our officer corps, and I look forward to having the 
opportunity to share our progress. In FY20, the breakout of commissions 
at the United States Military Academy (USMA) and U.S. Army Cadet 
Command (USACC/ROTC) is 65.8% white and 34.2% minority, which very 
closely reflects the U.S. population of 18-34 year olds with bachelor 
or higher degrees, at 65.1% white and 34.9% minority. Officer diversity 
in combat arms remains a focus and has steadily improved across both 
USMA and ROTC from FY18 to FY20, with the percentage of white cadets 
reducing from 71.9% to 69.6% and the percentage of non-white cadets 
increasing from 28.1% to 30.4% across these past three years. Female 
representation in combat arms also increased in FY20, with 68 women 
accessioning into infantry (IN) and armor (AR) branches, 12 more than 
last year.   [See page 34.]
                                 ______
                                 
            RESPONSE TO QUESTIONS SUBMITTED BY MRS. HARTZLER
    General McConville. The Army's Black Hawk modernization strategy 
includes options to accelerate procurements, based on available 
funding. As a result, the increased procurement of 74 Black Hawks in 
FY20 enabled the acceleration of H-60M fielding across the Army by one 
year. Completion of H-60M fielding will occur in FY27 instead of FY28. 
The FY21 procurement of 36 aircraft supports the completion of the last 
active Army HH-60M requirement, aligns with the ARNG fielding strategy, 
and supports its request for accelerated modernization.   [See page 
36.]
                                 ______
                                 
             RESPONSES TO QUESTIONS SUBMITTED BY MR. ROGERS
    Secretary McCarthy. Office of the Secretary of Defense Budget 
Guidance did not implement the use of the NDAA carryover language 
pending the ongoing GAO 19-452 carryover study. This study was 
published in July 2019 and recommended that the OSD establish a working 
group, in coordination with the Services, to develop and adopt a new 
carryover metric that provides reliable, complete, consistent, and 
appropriate information. The Army is aligned with OSD and the other 
Services in support of developing a new calculation before the end of 
the 3rd quarter FY20.
    Using the existing formula, the Army continues to decrease 
carryover overall and the Army projects to be under the allowable 
carryover amount at the end of FY21.
    Our intention is to set up an engagement with your office after the 
working group completes its report.   [See page 45.]
    General McConville. The Army is committed to developing new 
technologies and revising doctrine to take advantage of technological 
advances. As these capabilities are delivered to the force, the Army 
training community will assess and adapt the range capabilities needed 
to employ modernized weapon systems within the confines of our 
installations. The Army must continue to have the capability to employ 
these modernized systems in a live training environment that allows 
units to train to the fullest extent possible. The Army appreciates the 
committee's interest and support as our needs and requirements change 
with technological advances.   [See page 46.]
                                 ______
                                 
             RESPONSES TO QUESTIONS SUBMITTED BY MS. SPEIER
    Secretary McCarthy. Essential to any system of justice is the 
public's confidence that the system is fair--to the community, a 
victim, an accused, and their Families. Our system of justice depends 
on those who prosecute and defend to do so zealously, and those who 
judge to do so independently--always adhering to their best 
understanding of the law and the facts. I am absolutely convinced that 
this system is fundamentally fair, at both the trial and appellate 
levels, and that it is professionally administered in good faith by 
women and men of conscience and character. Factual sufficiency review 
by the service courts of criminal appeals (CCA) is an important 
component of the military judicial system. Under Article 66(d), UCMJ, a 
CCA ``may affirm only such findings of guilty, and the sentence or any 
part of the sentence, as the Court finds correct in law and fact and 
determines, based on the entire record, should be approved.'' The use 
of this authority has been proven over time and has been used sparingly 
since its inception with the enactment of the Uniform Code of Military 
Justice. A review of the last three fiscal years shows the Army CCA 
exercised this authority to set aside a specification in only 1.6% of 
all cases.
    Factual sufficiency review is not unique to the military. It is 
similar to the review New York appellate courts have used to overturn 
convictions. In People v Taft, 145 A.D.3d 1090 (N.Y App. Div. 2016), 
for instance, the NY appeals court applied a similar factual 
sufficiency standard to conclude that, ``weighing the conflicting proof 
and inferences, we find the jury's verdict that the proof established 
beyond a reasonable doubt that defendant committed murder in the second 
degree and manslaughter in the first degree to be against the weight of 
the evidence.'' Consequently, the court reversed the defendant's murder 
and manslaughter convictions. In People v O'Neil, 66 A.D.3d 1131 (N.Y 
App. Div. 2009), the NY appeals court reversed a jury's verdict 
convicting the defendant of sexual abuse of a child because it was 
``against the weight of the evidence'' when ``the record before us 
reveals that the victim's reliability is manifestly suspect.''
    The careful, thorough evaluation of a conviction by service courts 
of criminal appeals strengthens the legitimacy and the effectiveness of 
the military justice system even when, in a few cases, there have been 
reasonable disagreements concerning the outcomes. Our Soldiers deserve 
a fair, comprehensive appellate review; one that balances the interests 
of the command, the community, the victim, and the accused. Such 
balance is essential to ensure justice.   [See page 47.]
    Secretary McCarthy. Under the Affordable Care Act (ACA), everyone 
has access to all forms of contraception without costs as long as the 
private insurer is not exempt. When not activated for military duty, 
birth control prescription coverage for National Guard and Reserve 
Soldiers and their Family members is dependent on their private 
healthcare insurance coverage, which would then coincide with benefits 
under the ACA. Under the ACA birth control is provided at no out-of-
pocket costs, as the full cost will be covered by the monthly premium 
paid.   [See page 47.]
    General McConville. While not all allegations of racist behavior or 
instances of extremist ideology result in a criminal investigation, 
Army CID is tracking seven criminal investigations initiated in 2019 
involving Soldier participation in extremist activities. Six of the 
seven investigations involve white supremacist ideology. These CID 
investigations are ongoing in close coordination with FBI partners. One 
of these six investigations resulted in the arrest of a Soldier at Fort 
Riley, KS in September 2019. That Soldier is pending trial.   [See page 
46.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MS. CHENEY
    Secretary McCarthy and General McConville. I have passed your 
concerns about access to documents to the Secretary of Defense as the 
Army is not in possession of the documents at issue.   [See page 42.]



      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 3, 2020

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. TURNER

    Mr. Turner.  Previously the Army claimed that the Optionally Manned 
Fighting Vehicle was an urgent need, that the technology needed to 
produce the OMFV was mature, and that the requirements were flexible 
and achievable. Then the Army completely canceled the contract and is 
going back to the drawing board. Is the need not as urgent as 
previously thought? Is the technology not achievable in the near 
future? What is the root cause on this 180 degree change in position?
    General McConville. The Army is absolutely committed to the 
development of the Optionally Manned Fighting Vehicle (OMFV), and it is 
imperative that we produce a transformational infantry fighting vehicle 
to maintain overmatch for generations to come as quickly as technology 
will allow.
    We believe the technology is achievable. The main lesson the Army 
learned through the last OMFV solicitation was that we asked for a 
great deal of capability on a very aggressive schedule. Despite an 
unprecedented number of industry engagements--all of which allowed 
industry to help shape the competition--it became clear that a 
combination of requirements and schedule were too ambitious when 
integrated together.
    Mr. Turner.  General McConville, you've placed a high priority on 
the Army's hypersonic weapon development program. Does the budget 
request fully support this effort? It's a great capability but it comes 
at a cost. What programs is the Army forgoing in order to fund this 
program?
    General McConville. Yes, the FY21 budget request fully supports the 
Long Range Hypersonic Missile (LRHM) program and allows us to field the 
first prototype battery by FY23.
    The Army is requesting $801 million for LRHM in FY 2021 and $3.3 
billion over the FYDP, an increase of $1.2 billion over the FY2020 
request. The Army decremented the Mobile Intermediate Range Missile 
(MIRM), but has not foregone it or any other Army program to fund the 
LRHM program.
    Mr. Turner.  The recent Iranian missile attack in Iraq highlighted 
a critical gap in our integrated air and missile defense capabilities. 
In particular, Patriot and THAAD assets have limited coverage and lack 
interoperability. Last year, the Army finalized the purchase of two 
Iron Dome systems and is testing it as an interim solution. Do you feel 
the Army is acting quickly enough to respond to this demonstrated 
weaknesses in our defense? How, if at all, has the strategy for closing 
this gap changes since the attack at Al Asad?
    General McConville. As part of a Joint solution, the Army continues 
to develop a tiered and layered approach to defeat the various air and 
missile threats. The FY 21 Budget Request provides funding to critical 
air and missile defense (AMD) capabilities such as Patriot, Indirect 
Fire Protection Capability (IFPC), and Maneuver-Short Range Air Defense 
(M-SHORAD) that the Army will use to integrate AMD open architecture to 
task organize the appropriate sensors and shooters under the Integrated 
AMD Battle Command System across the Combatant Commander's operational, 
tactical, and close support areas. The Army is moving forward with the 
previously scheduled Limited User Test, an operational test that 
exercises warfighter participation, to address air and missile threats. 
The Army, in coordination with all Combatant Commanders, acts quickly 
to mitigate missile defense coverage gaps in their area of operations. 
The Army continues to work with the Central Command (CENTCOM) Commander 
to address regional requirements based specifically upon his defense 
design, while balancing global requirements presented by other 
Combatant Commanders. The attack on Al Asad serves to reinforce our 
view on the importance of air and missile defense and our efforts to 
close existing gaps.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MRS. HARTZLER
    Mrs. Hartzler. The Army is requesting to procure 36 UH-60M 
helicopters in Fiscal Year 2021. That is significantly less than the 
amount requested, authorized, and appropriated for Fiscal Year 2020. I 
understand that out of the 36, 13 are for the Active Duty and 23 are 
for the Army National Guard. Why is the number requested significantly 
lower than the number last year? How will this impact units that are in 
the pipeline to receive UH-60M helicopters?
    General McConville. The Army's Black Hawk modernization strategy 
includes options to accelerate procurements, based on available 
funding. As a result, the increased procurement of 74 Black Hawks in 
FY20 enabled the acceleration of H-60M fielding across the Army by one 
year. Completion of H-60M fielding will occur in FY27 instead of FY28. 
The FY21 procurement of 36 aircraft supports the completion of the last 
active Army HH-60M requirement, aligns with the ARNG fielding strategy, 
and supports its request for accelerated modernization.
                                 ______
                                 
                   QUESTION SUBMITTED BY MR. CARBAJAL
    Mr. Carbajal. California is home to two Army University Affiliated 
Research Centers (UARC), with ICB located in my district at UC Santa 
Barbara. I have heard from constituents that there are discussions 
occurring within the Department of the Army about whether to realign 
long-standing UARC funding to Texas, in order to consolidate resources 
near Army Futures Command. In FY2019, California received the most Army 
university funded research in the country. Does the Army have any plans 
to reallocate funding from current UARCs in California to universities 
in Texas in the coming years?
    Secretary McCarthy. The Army does not plan to reallocate funding 
from University Affiliated Research Centers (UARCs) in California to 
UARCs in Texas. California's UARCs maintain essential research, 
development, and engineering ``core'' capabilities
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. STEFANIK
    Ms. Stefanik. Secretary McCarthy, under the proposed Army budget, 
no funds were requested for the MQ-1 UAV (Gray Eagle) which provides a 
number of tactical advantages to the warfighter while conducting multi-
domain operations. Additionally, I am concerned with the plan to 
replace the legacy MQ-1C aircraft of which 25 percent are approaching 
the end of their service life within the next three years.
    What is the Army's long term plan for this aircraft and how do you 
plan on replicating its capability?
    Secretary McCarthy. There is no long range plan to replace the MQ-
1C; it is a capable platform and the oldest MQ-1C will not reach its 
end of useful life until FY31. The Army did not request funding in FY21 
because the program completed procurement of its acquisition objective 
in 2019. The Army will continue to modify MQ-1Cs, as required, to 
ensure they remain reliable and relevant. This continued modification 
plan will ensure the MQ-1's capabilities do not need to be replicated 
in the near future.
    Ms. Stefanik. Secretary McCarthy, as you are aware, Fort Drum is in 
my district and the installation is in need of updated and larger 
childcare centers. Under this year's Unfunded Requirements List, there 
are no requests to improve the centers, and under the Future Year 
Defense Program, there are no projected requests for childcare facility 
improvements.
    Is there was a plan or strategy in place to provide the funding 
needed to improve these critical and necessary childcare facilities for 
the soldiers and families of Fort Drum?
    Secretary McCarthy. The quality of life for our Soldiers, their 
Families, and our civilian workforce is my #1 priority. In fact, Army 
senior leadership have made child development centers a top priority as 
we upgrade our facilities over the next 5 years. As such, I have 
directed GEN Perna, Commander, Army Materiel Command, to address child 
development center issues. The Army recently concluded our Facility 
Investment Strategy (FIS) wargame. During this forum, the Ft. Drum 
garrison commander briefed his childcare facility requirements: 3 
renovation and modernization projects (R&M) and 1 new military 
construction, Army (MCA) project. That information will be used to 
shape the Army's future MCA and R&M efforts. The childcare requirements 
at Ft. Drum will be incorporated into the Army's FIS. GEN Perna will 
present FIS options to me for approval. The Army will be able to 
provide more details on the Ft Drum childcare improvement plan once the 
FIS is approved.
    Ms. Stefanik. General McConville, in the witness testimony provided 
it stated the Army will increase lethality at the point of ground 
contact with the enemy which will improve overall readiness of Brigade 
Combat Teams. The Secretary of Defense recently indicated he would 
likely move the Close Combat Lethality Task Force under the Army's 
oversight, which has been critical in rapidly equipping, training, and 
recruiting our close combat forces over the last two years. The task 
force has greatly improved the lethality of our combat forces at the 
point of ground contact.
    What is the Army's strategy for continuing the progress made under 
the task force, and who will oversee the program?
    General McConville. Army and Marine efforts have been integrated 
since the inception of the Close Combat Lethality Task Force (CCLTF) 
and we plan to continue that model as the Army takes the lead. Both 
services will stay involved in the development and testing of new 
systems like the Integrated Visual Augmentation System and the Next 
Generation Squad Weapon. Soldier and Marine-centered designs will be 
refined through feedback at touch points with equipment and concepts in 
the hands of close-combat Soldiers and Marines. Army Futures Command 
will oversee the program.
    Ms. Stefanik. General McConville the Army continues to modernize 
its talent management procedures with programs like the Army Talent 
Alignment Process (ATAP) and the Battalion Commander Assessment Program 
(BCAP) both of which support your message of ``putting people first.''
    Will similar talent management programs be implemented for the 
Army's Non-commissioned Officers (NCOs) and junior enlisted soldiers?
    General McConville. Yes. We are currently in the study phase for 
enlisted talent management initiatives. The Army recognizes that 
everyone has talent, and great organizations employ individual talents 
to meet organizational needs by placing the right Soldier in the right 
job, at the right time, over time. The current talent management 
initiatives being studied and developed for Enlisted Soldiers and the 
Non-Commissioned Officer Corps are the Army Talent Alignment Process 
(ATAP) and the Enlisted Talent Maximization Structure (ETMS).
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. VELA
    Mr. Vela. Did you recommend to the Office of the Secretary of 
Defense (OSD) that $1.7 billion in funding for the National Guard was 
ahead of programmatic need? What input did you provide for 
reprogramming funds to support the border wall? How many forces remain 
stationed along the border wall, and what activities are they 
conducting there?
    Secretary McCarthy and General McConville. I agree with the 
Chairman of the Joint Chiefs of Staff's assessment that the 
reprogrammed funding would not have a significant, immediate, strategic 
negative impact to the overall defense of the United States of America.
    Concerning the border wall, while the numbers fluctuate, there are 
3,846 Soldiers currently on the border (1,546 active duty military and 
2,300 National Guard members) in support of the DHS/CBP southern border 
security mission. The Soldiers support the following four FY2020 DOD 
mission sets: (1) infrastructure support (fence repair, roads, and 
drainage); (2) operational support (motor transport maintenance and 
operations, training safety officer, heavy equipment operations, and 
admin support); (3) detect and monitoring support (camera operator, 
checkpoint observer, sensor maintainer, and mobile surveillance 
camera); and (4) aviation support (light/medium and heavy rotary wing 
support, fixed wing, and unmanned aircraft system).
    Mr. Vela. The Army is looking to grow its force by 7,700 troops 
along with hiring 5,000 more civilians. With the Army looking to draw 
down forces in Afghanistan and potentially other parts of the world. 
Why is it necessary to grow the force?
    Secretary McCarthy. The Army requires continued increases of end-
strength to reduce military risk in support of the National Defense 
Strategy. These increases support the transition from counter-
insurgency operations to multi-domain operations, and the ability to 
defeat a near-peer adversary.
    Mr. Vela. With the lack of military sealift available to take the 
Army to the fight, how does the Army plan to mitigate this problem in 
order to meet certain war plans? How much does the lack of sealift 
affect the time phased deployment of the Army in these plans?
    General McConville. USTRANSCOM and the Navy are working to build 
readiness by recapitalizing the fleet through the procurement of used 
commercial vessels. The Army believes this recapitalization strategy is 
a fiscally responsible approach to improve readiness. If the risk due 
to declining sealift readiness becomes too great or the 
recapitalization plan does not materialize, the Army will need to 
consider increased theater presence and changes to our prepositioned 
stocks programs to meet COCOM requirements. This year, TRANSCOM will 
conduct Mobility Capability Requirements Study 2020 to validate force 
projection requirements for DOD. The Army will review the results and 
gain an updated view on our posture and our ability to project forces 
in time to meet COCOM requirements.
    Mr. Vela. What results have you seen in the Army's preparedness by 
exercising and operating with NATO? What value does NATO provide to the 
Army?
    General McConville. Army exercises with NATO result in increased 
preparedness and interoperability with Allies/Partners across the 
globe. These events assist with understanding our collective 
capabilities and identifying collective shortfalls. As partners, we 
highly value our relationship with NATO and its ability to generate and 
provide land forces to support deterrence and competition.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. GALLAGHER
    Mr. Gallagher. General McConville, it seems to me that regardless 
of the intensity of the conflict, the Army will always require food, 
ammo, and other logistical and sustainment items to be successful on 
the battlefield. Would you agree?
    Furthermore, the Army's medium and heavy tactical wheeled vehicles 
are modernized vehicles that move supplies and equipment to and around 
the battlespace. Would you agree, General, that this fleet is critical 
to sustaining the Army's global operations?
    Yet as I understand it, Army Futures Command will not have a 
dedicated cross functional team dedicated to the tactical wheeled 
vehicle fleet. Given that funding for the the Army's family of medium 
tactical vehicles continues to go down while funding for the heavy 
vehicles is zeroed-out in the outyears of the FY 21 budget request, I 
can't help but think that the enabling value of tactical wheeled 
vehicles may have been lost in the focus on the Army's big six 
modernization priorities.
    Consequently, I'm wondering if there's been any thought about 
creating a cross functional team for tactical wheeled vehicles, or if 
not, how the Army is working to ensure we continue to maintain this 
critical enabling capability?
    General McConville. I agree that logistics and the ability to 
transport necessary sustainment items are essential to any conflict and 
global operations. We are not, however, planning to create additional 
Cross Functional Teams at this time. The current CFT construct reflects 
our priorities for the capabilities our Soldiers will need to fight and 
win on a future battlefield. While there are many capability areas that 
are important to Army modernization, we do not want to dilute our 
efforts by making every capability a priority. We are, however, taking 
many of the CFTs best practices and applying them to other efforts.
    The Army fully recognizes the value of its Tactical Wheeled Vehicle 
(TWV) fleet and has requested over $1.2B in FY21 procurement funding 
for the TWV fleet and its associated trailers. The Joint Light Tactical 
Vehicle (JLTV), a key part of the TWV fleet, is one of the Army's 
highest modernization priorities. The Army is also moving forward with 
HMMWV modernization, FMTV procurement with the new FMTV A2 model, and 
an evaluation of the ``Leader-Follower'' autonomy applique kit for the 
Palletized Load System (PLS) fleet of vehicles. Concurrently, Army 
Futures Command is conducting a comprehensive TWV fleet study that 
examines TWV requirements in support of Joint All Domain Operations 
(JADO). The study, which began this year and is scheduled to be 
completed mid-FY21, will inform future force design and will address 
the required number of light, medium, and heavy tactical vehicles.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. HOULAHAN
    Ms. Houlahan. The Army's FY21 Budget Highlights state, the Army 
looks to addresses family housing and barracks; yet, as the Army looks 
to increase in personnel, it has reduced its family housing request by 
$62M, and military construction by $810M. Can you please explain how 
the Army intends to provide its members and families adequate housing, 
support programs and childcare as it expands in size?
    Secretary McCarthy. The additional $50 million in 2-year funding 
that was appropriated in FY20 is being used to pay for privatized 
housing home inspections and oversight personnel. Although smaller than 
the FY20 enacted appropriations, our FY21 request increases the funding 
level for privatized housing staffing and oversight, and also provides 
an increase for repairs and maintenance to Army-owned family housing. 
The slight decrease in the FY21 Army Family Housing requirement is due 
to reduced inventory, as the Army is divesting 900 homes, some as a 
result of excess housing stock and others for replacement. Overall, the 
Army's budget request includes $199M for Barracks and Family Housing 
construction.
    The Army believes that clarification of budget scoring criteria 
used for military privatized housing transactions will support 
Residential Communities Initiative (RCI) companies' abilities to obtain 
additional funding from the private sector capital markets. That 
injection of additional private sector funding into RCI privatized 
housing projects will enable replacement or substantial renovation of 
condition challenged homes owned by RCI companies on an expedited 
basis.
    I also want to highlight that the Army has developed a housing 
strategy to focus our investments to ensure that 100% of Army owned 
family housing is at a good or fair condition by FY26. Your support of 
our FY21 Army Family Housing request is vital to our ability to carry 
out that strategy and will allow the Army to bring 93% of its Army 
owned family housing to a good or fair condition by the end of FY21.
    Finally, the Army intends to meet the demand for quality, 
affordable child care by focusing on increasing capacity through 
military construction and increasing the number of homes providing 
Family Child Care. The Army has initiated the design of new child 
development centers at locations with the greatest need (e.g. Hawaii 
and Alaska) and is planning to add a total of 10 child development 
centers by FY25. While the Army builds increased capacity, the Army 
intends to retain a higher percentage of child care professionals by 
increasing pay to be competitive with civilian care providers and 
providing support through the Army Fee Assistance program which already 
covers 14,000 children.
    Ms. Houlahan. Can you please explain why the Army has decided not 
to implement the Block II upgrade throughout its entire Chinook fleet
    Secretary McCarthy. The Army decided not to implement the Block II 
upgrade throughout its entire Chinook fleet for several reasons.
    First, in support of the National Defense Strategy, the Army 
shifted its focus to large scale combat operations against Russia and 
China and away from the counter insurgency fight in Afghanistan. The 
CH-47 Block II was developed to enable operations in the higher 
elevations and higher temperatures in Afghanistan.
    Second, the Army's six modernization priorities are absolutely 
essential to defeat Russia and China, and with a flat Army Budget 
topline, the Army had to make some tough choices and find funding for 
the RDT&E for these priorities. The Army decided to delay the decision 
on Block II upgrade to the entire Chinook fleet to provide decision 
space with a relatively young fleet of aircraft while prioritizing the 
investments needed in support of the National Defense Strategy.
    Third, the average fleet age for the Chinook is only seven years 
old with an economic useful life of 20 years. This makes the Chinook 
the youngest of our helicopter fleets. This put the Army in a position 
to delay the decision about the future of the Army's Cargo Fleet. This 
delay enabled the redirection of funds towards the development of the 
next generation Future Vertical Lift effort.
    We will continue to assess the timing of future investment 
decisions required for the Army's CH-47F fleet readiness. As the Army 
modernizes its rotary wing fleet with its Future Attack Reconnaissance 
Aircraft (FARA) and Future Long- Range Assault Aircraft (FLRAA), the 
CH-47 will remain part of the enduring fleet for the foreseeable 
future.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. BANKS
    Mr. Banks. Given the fuel efficiencies, improved reliability and 
performance of the Advanced Medium Mobile Power Sources (AMMPS) over 
the legacy fleet of generator sets, the Committee commends the Army's 
use of AMMPS. These critical generator sets help ensure the readiness 
of the military by providing reliable electric power to the Network/
Command, Control Communications and Intelligence (C3I), Air and Missile 
Defense, Long Range Precision Fires, Command Post and Combat Support/
Combat Service support systems. Given the Army's modernization 
priorities, it is important for the Army to continue to keep in mind 
that power and the AMMPS program is a fundamental need for these 
initiatives to be successful. Could you please address the following 
questions:
    Could you please inform the Committee of the Army's power 
generation requirements to support the Army Futures Command 
modernization efforts?
    How does the Army plan to meet its power requirements?
    I understand in August 2018, the Army awarded a contract to procure 
15,240 AMMPS generators sets through 2023, however there are 
insufficient resources in the FY21 budget to procure these generators 
on the existing contract. What is the Army's plans to field AMMPS and 
fulfill the contract needs?
    Secretary McCarthy. Army Futures Command capabilities and plans are 
nested within the Army's existing force structure and are supported by 
existing or planned power generation systems. The Army's power 
generation requirement to support the Army Future Command's 
modernization efforts is primarily in the 5kW to 15kW power range. 
While current legacy systems across the Army are available to meet the 
needs of the identified capabilities being developed by Army Futures 
Command, the Army is: modernizing its power generation capabilities, 
specifically procurement of new 5kW to 15kW AMMPS systems that are more 
fuel efficient; will reduce its logistics footprint; and will take 
advantage of existing and planned smart power solutions. The new AMMPS 
systems associated with the contract in question, for example, have the 
lowest unit cost in the AMMPS family of generators. As systems are 
modernized, the existing legacy capabilities will be replaced. In all 
cases, the overall wattages, voltage, and output of the systems that 
exist or are planned/projected to exist, support the Army power 
generation needs. All will, or do, support existing and planned AFC/CFT 
capabilities.
    The Army is the Lead Standardization Activity for DOD which means 
all Services (USA, USN, USMC, and USAF) use Army contracts to procure 
power generation capabilities. The Army has $10.7M in customer orders 
in FY20 ($2.2M--Air Force; $3.9M--Navy; $4.6M--other Army 
organizations) with anticipated/continued power generation procurement 
requirements from other services in FY21. The anticipated/continued 
service orders coupled with Army base funding requirements ensures 
contract fulfillment in FY21.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. WALTZ
    Mr. Waltz. Can you briefly describe the Army's dependency on space 
and American space assets for positioning, navigation, and timing (PNT) 
and mission success?
    Secretary McCarthy. For the Army to operate today, and within the 
Multi Domain Operations Concept, we must have responsive, timely, and 
prioritized use of space-based capabilities. These capabilities are 
critical to mission success and must have the capacity to allow the 
Army to conduct mission command through communications links, 
synchronization and mass effects (fires and maneuver), and gain near 
real time intelligence for time sensitive targeting operations. Current 
space-based positioning, navigation, and timing (PNT) capabilities are 
the foundation for the Army to maintain situational awareness and 
deliver precision lethal effects. The Army is currently diversifying 
its capability to deliver PNT data in areas when GPS is denied or 
degraded.
    Mr. Waltz. Under current law, reservists are annually required to 
submit information about their civilian employer and job skills. Can 
you describe how this civilian skills database is used by DOD to ensure 
reservists skills are considered when assigning career or mission 
specialties?
    Secretary McCarthy and General McConville. The Reserve Component 
does not use the Civilian Education, Skills, Experience, and 
Certifications (CESEC) database to assign career or mission 
specialties. Instead, it is primarily used to maintain awareness of 
reservists who have critical skills necessary for national health, 
safety, and interest when considering which members to recall. This 
ensures that members with critical skills as civilians in their local 
communities and governments, including first responders, are not called 
to duty and retained in numbers in excess of the current need, 
depriving communities of those same skills.
    The Army intends, however, to expand the Talent Management 
initiatives via the Integrated Personnel Pay System (Army) to capture 
National Guard and Reserve personnel knowledge, skills, and behaviors. 
These talents identified in components 2 & 3 could then be utilized in 
their military and/or DOD civilian employments if applicable.
    Mr. Waltz. Excluding the 173rd Airborne BDE operation in Northern 
Iraq in 2003, how many static-line, mass tactical, operations has the 
Army used in combat in the last 20 years? How do static-line parachute 
assaults fit into the Army's doctrine for fighting in the current 
strategic environment?
    Secretary McCarthy and General McConville. Since March 2000, the 
U.S. Army has executed 5 static-line, mass tactical, combat airborne 
operations, not including the 173rd Airborne (TF Viking/Combined Joint 
Special Operations Task Force--North). Three operations were in support 
of OPERATION Enduring Freedom in Afghanistan and the remaining two were 
in support of OPERATION Iraqi Freedom in Iraq. All five included 
elements of the 75th Ranger Regiment and each operation involved at 
least one company-sized element. The Joint Operating Environment 
envisions China and Russia employing a variety of political and 
military anti-access and area denial strategies to create standoff. As 
a global power with global interests, the United States must maintain 
the capability to project military force into any region of the world 
in support of those interests. Airborne operations are one of four 
types of forcible entry--seizing a hostile area--that makes the 
continuous landing of subsequent troops and materiel possible. Airborne 
operations offer the Joint Force an immediate forcible entry option as 
they can be launched directly from the continental U.S. without the 
delays associated with acquiring intermediate staging bases or 
repositioning sea-based forces. Forcible entry operations are often the 
precursor to follow- on major operations and enable the Joint Force to 
seize the initiative.
    Mr. Waltz. Have there been any recent studies on the numbers and 
types of static-line parachute injuries based on a soldier's military 
occupational specialty (MOS), unit of assignment, or overall parachute 
proficiency (i.e., number of jumps or months/years on jump status)? Do 
you have any estimates on the costs to treat these injuries?
    Secretary McCarthy and General McConville. The US Army Combat 
Readiness Center (USACRC), the Army Airborne Board, and the Army 
medical community have conducted several studies from FY15 to the 
present to address paratrooper injury rates based on: (1) the type of 
parachute used; (2) the number of jumps; (3) military occupational 
specialties (MOS); and (4) specific units. The actual costs of injuries 
is difficult to determine. We use a Department of Defense formula to 
assign costs based on the severity of the reported injury to estimate 
injury costs. Using these figures, the total estimated costs of 
injuries reported to the USACRC from FY15 to the present is $73M. Army 
Public Health Command has a study in review comparing injury rates and 
costs of paratroopers and non-paratroopers. This study includes all 
injuries and not just those associated with parachuting. In this three 
year study, non- paratroopers experienced 2.93 injuries per Soldier 
(500,093 injuries to 170,715 Soldiers), while paratroopers experienced 
3.05 injuries per Soldier (96,338 injuries to 31,621 Soldiers), 
equating to roughly one injury per Soldier per year in both 
populations. The average direct medical cost for injuries was $2,467 
per paratrooper and $2,831 per non-paratrooper. Annually, these 
estimates equate to a cost of $822 per paratrooper and $944 per non-
paratrooper per year.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MRS. TRAHAN
    Mrs. Trahan. I am concerned that in the Army's excitement to reach 
out to commercial, non-traditional vendors, the Army may risk selecting 
firms that:
    Will not be able to manufacture products that are Berry Amendment 
and Trade Agreements Act (TAA) compliant;
    Will not be in full compliance with the Department's cybersecurity 
policy;
    Will still have Chinese components;
    and due to this all, the proposals during competition will not be 
accurately priced.
    Specifically, during the Army's Short Range Reconnaissance Small 
Unmanned Aircraft System competition, the Army's prototype selection 
process was held in a vacuum in which the ban on Chinese components, 
the Defense Federal Acquisition Regulation Supplement (DFARS) rules, 
and domestic content requirements did not exist. This effectively 
excluded the participation of several established vendors--and thereby 
limited competition--as cybersecure, Berry Amendment compliant vendors 
could not compete on price. It also required the Department to make 
substantive exceptions for the winning prototypes. I have significant 
concerns that the winning SRR bidders will not be able to meet the 
requirements related to domestic content, cybersecurity and 
manufacturability as the SRR program moves from the R&D phase into 
procurement.
    Mr. Secretary and General McConville, I would ask that you take a 
closer look at the SRR procurement strategy and take action to ensure 
that our soldiers and the Army are getting the best technology 
available. Will you work with me to make sure that happens?
    Secretary McCarthy and General McConville. Yes. We will ensure the 
Army continues to comply with all applicable laws and regulations 
throughout the procurement process while ensuring Soldiers get the best 
technology available.
                                 ______
                                 
                   QUESTION SUBMITTED BY MR. BRINDISI
    Mr. Brindisi. General McConville, I commend the U.S. Army 
leadership for making tough decisions regarding the modernization of 
the Army's future force. I also appreciate the hard choices that you 
have had to make to ensure adequate funding across your top 6 
modernization priorities. However, I am concerned that given the 
current priorities of the Army and the support that Congress has given 
the Army for long range assault aircraft, there may be a slight risk to 
future vertical lift if these programs are not adequately funded.
    If the Army were to receive additional funding for the integration 
of key technologies on the platform, a risk mitigation effort, would 
the Army be able to execute these funds within the fiscal year?
    General McConville. Yes, increased FLRAA funding could be obligated 
during FY21. The Army recently awarded two Competitive Demonstration 
and Risk Reduction OTA agreements, and initiated Phase I with FY20 
funding.

                                  [all]
</pre></body></html>
